   October 30, 2006




Acquisition
FY 2005 DoD Purchases Made
Through the General Services
Administration
(D-2007-007)




            Department of Defense
           Office of Inspector General
Quality               Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Audit at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CENTAF                U.S. Central Command Air Force
COR                   Contracting Officer’s Representative
CSC                   Client Support Center
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
GSA                   General Services Administration
IG                    Inspector General
IT                    Information Technology
ITSS                  Information Technology Solutions Shop
J&A                   Justification and Approval
MIPR                  Military Interdepartmental Purchase Request
O&M                   Operation and Maintenance
OIG                   Office of Inspector General
PM TRCS               Program Manager Tactical Radio Communications Systems
PPIRS                 Past Performance Information Retrieval System
QASP                  Quality Assurance Surveillance Plan
RDT&E                 Research, Development, Test, and Evaluation
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
USD(C)                Under Secretary of Defense (Comptroller)
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                Department of Defense Office of Inspector General
Report No. D-2007-007                                                   October 30, 2006
   (Project No. D2005-D000CF-0222.000)

                    FY 2005 DoD Purchases Made Through
                     the General Services Administration

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses widely
misunderstood DoD guidance on planning, reviewing, and funding purchases made by
the General Services Administration (GSA) on behalf of DoD.

Background. Public Law 108-375, “National Defense Authorization Act for Fiscal
Year 2005,” October 28, 2004, requires the DoD and GSA Office of Inspectors General
to assess the policies, procedures, and internal controls of each GSA Client Support
Center and determine whether the GSA Client Support Centers were compliant with
Defense procurement requirements for purchases awarded by GSA. The law requires a
second review if our initial review disclosed problems. Our initial review was performed
last year and disclosed numerous problems that are summarized in DoD Inspector
General Report No. D-2005-096, “DoD Purchases Made Through the General Services
Administration,” July 29, 2005. This second report addresses whether the 11 GSA Client
Support Centers and DoD requiring activities have improved their compliance with
acquisition and funding laws and regulations.

The GSA Federal Technology Service provides assisted acquisition support for Federal
agencies. DoD uses Military Interdepartmental Purchase Requests to transfer funds to
GSA when using assisted acquisition support.

In FY 2005, DoD sent approximately 20,505 Military Interdepartmental Purchase
Requests to GSA. The GSA Client Support Centers awarded approximately
18,960 orders for goods and services on behalf of DoD. These orders had a total value
around $3.0 billion. The $3.0 billion dollar value, consisting of new orders and
modifications to existing orders, represents more than 83 percent of the $3.6 billion in
total business by the GSA Client Support Centers.

Results. Although GSA and DoD contracting and program management officials
improved the assisted acquisition contracting process, they continued to purchase goods
and services without fully complying with appropriation law, the Federal Acquisition
Regulation, and DoD procurement regulations. Of the 56 purchases reviewed, 55 were
either hastily planned or improperly executed or funded. Specifically:

       •   on 55 of 56 purchases, DoD organizations lacked acquisition planning;

       •   on 54 of 56 purchases, DoD organizations did not have adequate interagency
           agreements with GSA;

       •   on 6 of 14 sole-source purchases reviewed, GSA Client Support Centers did
           not provide adequate justification for sole-source procurements;

                                             i
            •   on 42 of 51 purchases, 1 DoD did not develop and implement adequate quality
                assurance surveillance plans;

            •   on 11 of 54 purchases, 2 both GSA and the DoD requesting activity used
                Government funds that did not meet the bona fide needs rule, and on 1 of 54
                purchases the DoD requesting activity used the incorrect appropriation; and

            •   on 11 of 56 purchases, DoD did not maintain an audit trail of the funds used to
                make the purchase.

The DoD Office of Inspector General identified 4 of 11 Client Support Centers that did
not fully comply with DoD procurement and funding regulations. The four Client
Support Centers were not fully compliant due to problems such as potential
Antideficiency Act violations and the lack of adequate interagency agreements. Both
DoD and the General Services Administration are working together to resolve problems
found within the four Client Support Centers; meanwhile, DoD will continue to do
business with all Client Support Centers.

The Under Secretary of Defense for Acquisition, Technology, and Logistics
(USD[AT&L]) needs to establish requirements that a DoD-qualified contracting officer
evaluate acquisitions for amounts greater than the simplified acquisition threshold when a
requiring DoD organization plans to use non-DoD contracts. The USD(AT&L) should
also establish overall DoD policies on acceptable contract administration roles and
responsibilities when purchasing goods or services through non-DoD agencies, finalize
negotiations with non-DoD agencies to develop interagency agreements that specify
agreed-upon roles and responsibilities regarding contract administration and surveillance
duties, negotiate with non-DoD agencies to develop procedures that will record
contractor performance on all Government contractors, and develop a training course that
instructs contracting and program office personnel on the bona fide needs rule and
appropriations law. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer (USD[C]/CFO) needs to continue working with GSA to determine the amount of
expired funds at GSA. The USD(C)/CFO must also oversee efforts by individual
Components to deobligate the expired funds and provide guidance on the specific laws
other than the Economy Act. We also identified 12 potential Antideficiency Act
violations, which are listed in Appendix D. Recommendations to the USD(C)/CFO to
initiate preliminary reviews regarding those potential violations are contained in another
DoD Inspector General audit report, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies.” Recommendations to GSA are included
in reports prepared by the GSA Inspector General. (See the Finding section of the report
for the detailed recommendations.)

Management Comments and Audit Response. The Office of the USD(AT&L)
concurred that better acquisition planning, discipline, and oversight are required in the
area of interagency acquisition. The USD(AT&L) advised that since our audit
concluded, DoD and GSA have been working on a Corrective Action Plan that addresses
22 areas of concern, including those areas identified in our report. The Director of
Defense Procurement and Acquisition Policy, responding for the USD(AT&L), partially
concurred with our recommendation that a contracting officer determine whether it is in
the best interest of the DoD to use interagency support; however, the Director felt that a

1
    Five of the purchases reviewed were for commodities and therefore did not require a quality assurance
     surveillance plan.
2
    We were unable to determine whether Government funds were properly funded for one purchase at
    U.S. Northern Command and one purchase at Defense Security Service due to lack of available
    documentation.

                                                       ii
threshold needed to be established to preclude all purchases being reviewed by
contracting officers. The Director concurred with recommendations to develop a training
course on proper acquisition planning and contract administration, establish policy on
contract administration roles and responsibilities when purchasing goods or services
through a non-DoD agency, establish a Memorandum of Understanding with GSA that
will include roles and responsibilities regarding contract administration and surveillance
duties, and utilize the Past Performance Information Retrieval System. The Acting
Deputy Chief Financial Officer, responding for the USD(C)/CFO concurred with
recommendations to determine the amount of expired funds at the GSA, and oversee
efforts by individual Components to deobligate these funds. Finally, the Acting Deputy
Chief Financial Officer concurred to provide guidance and clarification on the use of
Non-Economy Act orders, in addition to distinguishing between Economy Act orders and
Non-Economy Act orders. No additional comments from either the USD(AT&L) or the
USD(C)/CFO are required. A discussion of management comments is in the Finding
section of the report and the complete text is in the Management Comments section.

Although not asked to comment, the GSA Federal Acquisition Service Commissioner
provided comments on our finding. GSA disagreed with the statement that GSA and
DoD “… continue to purchase goods and services without fully complying with
appropriation law, the Federal Acquisition Regulation, and DoD procurement
regulations,” and that purchases were either hastily planned or improperly executed or
funded. GSA recommended that wording be changed to show that DoD officials were
responsible for acquisition errors and mismanagement and that DoD Inspector General
found instances where they questioned GSA compliance with fiscal law and the Federal
Acquisition Regulation. Furthermore, the GSA Commissioner stated that “GSA used
funds in a manner consistent with the Federal Acquisition Regulation but inconsistent
with the DoD guidance as it now appears to be evolving.” Specifically, GSA IG stated
that interagency agreements and quality assurance surveillance plans were prepared in
accordance with the Federal Acquisition Regulation. GSA disagreed that on 6 of 14
sole-source purchases reviewed, GSA Client Support Centers did not provide adequate
justification for sole source procurements. GSA disagreed that 12 of 54 purchases
improperly used Government funds and resulted in potential Antideficiency Act
violations. GSA stated that there was a potential Antideficiency Act violation on only
1 of the 54 purchases. GSA further disagreed that 4 of 11 GSA Client Support Centers
did not fully comply with DoD procurement and funding regulations. GSA stated that
there was not any justification for singling out the four Client Support Centers identified
in the DoD Inspector General report.

Although we believe that GSA has made progress in improving its operation, we do not
believe that it is blameless in the flawed acquisitions identified in this report and that
DoD should shoulder all the blame. Representatives from the office of the USD(AT&L)
and GSA acquisition executives have developed a draft Corrective Action Plan that
should bring GSA-assisted acquisitions into alignment with statutory and DoD regulatory
guidance. Although GSA felt it had acquisition plans, the relevant DoD requiring
activities did not always know that the GSA acquisition plans existed; and acquisition
planning requires the involvement of the requiring activity. Interagency agreements
should be specific, and quality assurance surveillance plans should include all work
requiring surveillance and the method of surveillance. We also stand by our belief that
12 potential Antideficiency Act violations occurred. Although there is not a precedent
that clearly demonstrates responsibility, we believe that both parties have some
culpability in these 12 potential Antideficiency Act violations. Additionally, as reported,
GSA funding guidance was inconsistent with how DoD wanted its funds managed, and in
some cases the GSA Client Support Centers did not follow GSA guidance. We also
stand by our concerns relating to problems identified at four Client Support Centers.


                                             iii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    3

Review of Internal Controls                                                   4

Finding
     FY 2005 DoD Use of GSA Client Support Centers                           5

Appendixes
     A. Scope and Methodology                                                32
     B. Prior Coverage                                                       35
     C. Identified Funding Problems                                          37
     D. Potential Antideficiency Act Violations That Occurred Primarily
           in FY 2005                                                        39
     E. Other Identified Problems                                            43
     F. DoD MIPRs to GSA in Audit                                            46
     G. Report Distribution                                                  60

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   63
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        66
     General Services Administration                                         68
Background
           This audit was performed in accordance with section 802, Public Law 108-375,
           “National Defense Authorization Act for Fiscal Year 2005,” October 28, 2004.
           Section 802 states:
           (a) INITIAL INSPECTOR GENERAL REVIEW AND DETERMINIATION.—

           (1) Not later than March 15, 2005, the Inspector General of the Department of
           Defense and the Inspector General of the General Services Administration shall
           jointly—

                    (A) review—

                        (i) the policies, procedures, and internal controls of each GSA Client
                        Support Center; and

                        (ii) the administration of those policies, procedures, and internal
                        controls; and

                    (B) for each such Center, determine in writing whether—

                        (i) the Center is compliant with defense procurement requirements;

                        (ii)   the Center is not compliant with defense procurement
                        requirements, but the Center made significant progress during 2004
                        toward becoming compliant with defense procurement requirements; or

                        (iii) neither of the conclusions stated in clauses (i) and (ii) is correct.

           (2) If the Inspectors General determine under paragraph (1) that the conclusion
           stated in clause (ii) or (iii) of subparagraph (B) of such paragraph is correct in the
           case of a GSA Client Support Center, those Inspectors General shall, not later than
           March 15, 2006, jointly—

                    (A) conduct a second review regarding that GSA Client Support Center as
                    described in paragraph (1)(A); and

                    (B) determine in writing whether that GSA Client Support Center is or is
                    not compliant with defense procurement requirements.

           To comply with the FY 2005 National Defense Authorization Act, the DoD
           Office of Inspector General (OIG) and GSA OIG conducted an interagency audit
           of DoD purchases made by GSA in FY 2005. We were required to evaluate 11 of
           the 12 General Services Administration’s (GSA) Client Support Centers (CSC). 1
           The law requires a second review if our initial review disclosed problems. Our
           initial review was performed last year and disclosed numerous problems that are
1
    The European Business Unit was not reviewed because the GSA Report, “Compendium of Audits of
     Federal Technology Service Client Support Center Controls,” June 14, 2005, determined that the CSC
     (located in the Kansas City Region) was compliant with procurement regulations.



                                                         1
            summarized in DoD Inspector General (IG) Report No. D-2005-096, “DoD
            Purchases Made Through the General Services Administration,” July 29, 2005.

            This report addresses whether problem areas identified in the initial report have
            been corrected. Specifically, we reviewed the policies, procedures, and internal
            controls in place and administered at the CSCs and determined whether the CSCs
            were compliant with Defense procurement and fiscal requirements. GSA OIG
            also issued an audit report addressing CSCs reviewed for compliance with
            procurement regulations. The DoD and GSA OIGs transmitted a summary of this
            year’s joint review to Congress on March 15, 2006, and provided a briefing to
            staffers working for the Senate Armed Services Committee on March 27, 2006.

            GSA performs management and support functions for the Federal Government.
            Specifically, GSA offers Federal agencies workplaces, expert solutions,
            acquisition services, and management policies. GSA consists of the Federal
            Technology Service, Federal Supply Service, Public Building Services, and
            various Staff Offices. GSA anticipates its reorganization will consolidate the
            Federal Technology Service and the Federal Supply Service into the new Federal
            Acquisition Service. The planned Federal Acquisition Service will consist of
            7 zones within 11 geographic regions. The 11 GSA regions are located in Boston
            (Region 1); New York (Region 2); Philadelphia (Region 3); Atlanta (Region 4);
            Chicago (Region 5); Kansas City (Region 6); Fort Worth (Region 7); Denver
            (Region 8); San Francisco (Region 9); Auburn, Washington (Region 10); and
            Washington, D.C. (Region 11). GSA was established in 1949 and employs
            approximately 13,000 personnel.

            The GSA Federal Technology Service provides assisted acquisition support for
            Federal agencies including DoD. The GSA Federal Technology Service provides
            the Federal Information Technology (IT) 2 community a comprehensive range of
            IT products and assisted services on a fully cost-reimbursable basis supported by
            the Clinger-Cohen Act (see next page). The GSA Federal Supply Schedule
            provides Federal agencies with negotiated contracts for commercial supplies and
            services. DoD uses the Military Interdepartmental Purchase Request (MIPR) to
            transfer funds to GSA when using assisted acquisition services.

            Federal Technology Service. The GSA Federal Technology Service mission is
            to deliver best-value and innovative solutions in IT to support Government
            agency missions worldwide. The GSA Federal Technology Service works with
            Federal Government agencies offering assisted acquisition services on a fee-for-
            service basis. Assisted acquisition services offered include developing the
            acquisition strategy; preparing the statement of work; determining the best
            solicitation approach; conducting the acquisition; signing contracting documents;
            providing legal support if required; acting as the contracting officer’s technical
            representative on each task order; and managing contract milestones, schedules,
            and costs as necessary. According to the GSA Web site (current as of

2
    Information Technology is equipment or an interconnected system or subsystem of equipment that is used
     in the automatic acquisition, storage, manipulation, management, movement, control, display, switching,
     interchange, transmission, or reception of data or information. Information Technology includes
     computers, ancillary equipment, software, firmware, and similar procedures, services (including support
     services), and related resources.



                                                       2
            April/May 2006), GSA CSCs select from fully competed, national,
            multiple-award contracts and other Government-wide sources, including GSA
            Federal Supply Schedules, to identify and acquire best-value solutions to meet
            customer requirements.

            Clinger-Cohen Act. The Information Technology Management Reform Act
            of 1996, also known as the Clinger-Cohen Act, defines IT. The Clinger-Cohen
            Act assigns overall responsibility for the acquisition and management of IT to the
            Director, Office of Management and Budget. The primary purposes of the
            Clinger-Cohen Act are to streamline IT acquisitions and emphasize life-cycle
            management of IT as a capital investment. The Clinger-Cohen Act also provides
            specific statutory authority for the GSA IT Fund.

            DoD Use of GSA. DoD uses the MIPR (DoD Form 448) to transfer funds within
            the Services and to other Federal agencies. A MIPR is a request for materiel,
            supplies, or services. DoD sends reimbursable MIPRs to procure services and
            supplies from GSA. DoD usually uses MIPRs to transfer funds to other Federal
            agencies under the authority of the Economy Act 3 and in compliance with the
            DoD Financial Management Regulation, volume 11A, chapter 3, “Economy Act
            Orders.” However, DoD issues MIPRs to GSA requesting IT goods and services
            under the Clinger-Cohen Act. Accordingly, the MIPRs sending funds to the GSA
            IT Fund are reimbursable orders that do not have the same controls as MIPRs sent
            under the Economy Act. The DoD activity records an obligation on its books
            when the MIPR is accepted by GSA; as stated within the GSA Commissioner
            issued June 7, 2004, memorandum, “Guidance and Information Concerning
            Interagency Transactions and Proper Management of Reimbursable Agreements
            in Revolving Funds.” Usually acceptance occurs within a few days from when
            the MIPR was sent.

            In FY 2005, DoD sent approximately 20,505 MIPRs to GSA. GSA awarded
            approximately 18,960 orders for goods and services with a total value of
            approximately $3.0 billion. The $3.0 billion dollar value, consisting of new
            orders and modifications to existing orders, represents more than 83 percent of
            the $3.6 billion in total business by the GSA CSCs.

Objectives
            Our overall audit objective was to evaluate the internal controls over DoD
            purchases through GSA. Specifically, we examined whether there was a
            legitimate need for DoD to use GSA, whether DoD requirements were clearly
            defined, and whether funds were properly used and tracked. We also examined
            how GSA accepted and fulfilled the DoD requirements. See Appendix A for a
            discussion of the scope and methodology. See Appendix B for prior coverage
            related to the objectives.

3
    The Economy Act authorizes agencies to enter into mutual agreements to obtain supplies or services by
     interagency or intra-agency acquisition. Each Economy Act order must be supported by a Determination
     and Finding stating that the use of an interagency acquisition is in the best interest of the Government,
     and the supplies or services cannot be obtained as conveniently or economically by contracting directly
     with a commercial enterprise.



                                                        3
Review of Internal Controls
            At the sites visited, we identified material internal control weaknesses as defined
            by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
            Procedures,” January 4, 2006. DoD organizations were required to ensure the
            acquisition strategy is in the best interest of the Government. The sites we visited
            encountered problems while implementing and executing policy. Furthermore,
            contracting, financial, and accounting officials did not comply with regulations
            and statutes. DoD organizations should incorporate the regulations and statutes
            associated with contracting and funding. Contracting, financial, and accounting
            officials should have the necessary training and knowledge to properly execute
            the orders. Implementing the recommendations in this report should improve
            contracting procedures for orders awarded using non-DoD contracts. We are
            making no recommendations related to funding problems because DoD IG audit
            report, “Potential Antideficiency Act Violations on DoD Purchases Made
            Through Non-DoD Agencies,” due out in FY 2007, 4 contains recommendations
            that should correct the material funding weaknesses identified in this report. A
            copy of these reports will be provided to the senior official responsible for
            internal controls in the Office of the Under Secretary of Defense
            (Comptroller)/Chief Financial Officer (USD[C]/CFO).




4
    Draft report was issued October 6, 2006.



                                                 4
                    FY 2005 DoD Use of GSA Client
                    Support Centers
                    In FY 2005, GSA contracting officials and DoD management officials
                    showed improvement from the previous year in complying with the
                    appropriations law; however, those officials continued to purchase goods
                    and services without fully complying with the Federal Acquisition
                    Regulation (FAR), DoD procurement regulations, and fiscal policy. Of
                    the 56 purchases reviewed, 55 were either hastily planned or improperly
                    funded. Specifically:

                             •    on 55 of 56 purchases, DoD organizations lacked acquisition
                                  planning;
                             •    on 54 of 56 purchases DoD organizations did not have
                                  adequate interagency agreements with GSA;

                             •    on 6 of 14 sole-source purchases reviewed, GSA CSCs did not
                                  provide adequate justification for sole-source procurements;

                             •    on 42 of 51 purchases, 5 DoD did not develop and implement
                                  adequate quality assurance surveillance plans (QASP);

                             •    on 11 of 54 purchases, 6 both GSA and the DoD requesting
                                  activity used Government funds that did not meet the bona fide
                                  needs rule, and on 1 of 54 purchases the DoD requesting
                                  activity used the incorrect appropriation; and

                             •    on 11 of 56 purchases, DoD did not maintain an audit trail of
                                  the funds used to make the purchase.

                    This occurred because DoD guidance on the use and funding of
                    interagency agreements for non-DoD purchases was unclear. As a result,
                    DoD organizations making purchases through GSA had no assurance that
                    the purchases were based on best value and DoD continued to incur
                    potential Antideficiency Act violations.

Criteria
            Acquisition Planning Criteria. FAR Part 7, “Acquisition Planning,” details the
            Federal requirements for acquisition planning. FAR Subpart 7.102(b) states that
            agencies must perform acquisition planning for all acquisitions: “This planning
            shall integrate the efforts of all personnel responsible for significant aspects of the
5
    Five of the purchases reviewed were for commodities and therefore did not require a quality assurance
     surveillance plan.
6
    We were unable to determine whether Government funds were properly funded for one purchase at
    U.S. Northern Command and one purchase at Defense Security Service due to lack of available
    documentation.



                                                       5
acquisition. The purpose of this planning is to ensure that the Government meets
its needs in the most effective, economical, and timely manner.”

FAR Subpart 7.105 requires organizations to consider acquisition alternatives and
prospective sources of supplies and services that will meet their need.

FAR Part 10, “Market Research,” requires that agencies use the results of market
research to determine the sources capable of satisfying the agency’s requirements.

Proper Use of Non-DoD Contracts. The Principal Deputy Under Secretary of
Defense (Comptroller) and Acting Under Secretary of Defense (Acquisition,
Technology, and Logistics) issued an October 29, 2004, memorandum, “Proper
Use of Non-DoD Contracts” (DoD October 29, 2004, Memorandum). The
memorandum directs Military Departments and Defense agencies to establish
procedures for reviewing and approving the use of non-DoD contract vehicles
when procuring supplies and services on or after January 1, 2005, for amounts
exceeding the simplified acquisition threshold. The procedures for assisted
acquisitions must include evaluating whether using a non-DoD contract is in the
best interest of DoD; determining that services and supplies are within the scope
of the contract used; reviewing funding to ensure it is in compliance with
appropriation limitations; providing unique terms, conditions, and requirements to
the assisting agency for incorporation into the order or contract, thus ensuring the
contract is in compliance with DoD-unique statutes, regulations, directives, and
other requirements; and collecting data on the use of assisted acquisitions for
analysis.

The Military Departments prepared procedures in compliance with section 854 of
the FY 2005 National Defense Authorization Act and the DoD October 29, 2004,
Memorandum noted above that establish policy for reviewing and approving the
use of non-DoD contract vehicles when procuring supplies and services.

The Army, Navy, and Air Force issued their own “Proper Use of Non-DoD
Contracts” memorandums in response to the DoD October 29, 2004,
Memorandum. The Army July 12, 2005, Memorandum states, “prior to the
transmittal of an assisted acquisition request to a non-DoD organization, the
requiring activity shall consult with its designated contracting office (if there is no
contracting office … contact the Office of Procurement Policy and Support under
the Deputy Assistant Secretary of the Army (Policy and Procurement) for
assignment of an Army contracting office), which will advise regarding the
various DoD contractual options available to obtain the supplies and services.”
The Navy December 20, 2004, Memorandum instructs “requiring individuals
must document for the record the following: The action is in the best interest of
DoD.…” While the Air Force December 6, 2004, Memorandum directs that “the
requiring organization shall document the following: Use of a non-DoD contract
is in the best interest of the Air Force and should be signed by the Program
Manager or Project Officer for assisted acquisitions.” All Military Department
memorandums were effective on or after January 1, 2005.

DoD Policy on Interagency Agreements. Section 1535, title 31, United States
Code, “Agency Agreements,” allows the head of an agency or major
organizational unit within an agency to place an order with another agency for


                                      6
goods or services if amounts are available, it is in the best interest of the U.S.
Government, the other agency can fill the order, and the order cannot be provided
by contract as conveniently or economically by a commercial enterprise.

DoD Instruction 4000.19, “Interservice and Intragovernmental Support,”
August 9, 1995, implements policies, procedures, and responsibilities for
intragovernmental support as a result of agreements among Federal Government
activities. DoD organizations may enter into interagency agreements with non-
DoD Federal activities when funding is available to pay for the support, the
agreement is in the best interest of the Government, the supplying activity is able
to provide the support, the support cannot be provided as conveniently or
economically by a commercial enterprise, and the agreement does not conflict
with any other agency’s authority. Determinations must be approved by the head
of the major organizational unit ordering the support and must be attached to the
agreement.

DoD Financial Management Regulation volume 11A, chapter 1, “General
Reimbursement Procedures and Supporting Documentation,” March 1997, details
interagency agreement documentation required to support evidence of a formal
offer and acceptance between the grantor and grantee of the order. The minimum
essential documentation includes the authority to enter into the Memorandum of
Understanding, a description of the material or services required, the established
dollar limits, financial source or fund citation, delivery requirements, payment
provisions, duration of the agreement, and the form in which specific orders
against the Memorandum of Understanding or Memorandum of Agreement will
be placed.

The DoD Deputy Chief Financial Officer issued a March 24, 2005, memorandum,
“Proper Use of Interagency Agreements for Non-Department of Defense
Contracts Under Authorities Other Than the Economy Act” (DoD
March 24, 2005, Memorandum). This memorandum, in conjunction with the
DoD October 29, 2004, Memorandum, establishes DoD policy on assisted
acquisitions such as those completed by the GSA Federal Technology Service and
ensures that interagency agreements (under other than the Economy Act) for non-
DoD contracts are used in accordance with existing laws and DoD policy.

MIPR Guidance. Section 1501, title 31, United States Code, “Documentary
Evidence Requirement for Government Obligations,” requires a binding, written
agreement between two agencies that will report the specific goods to be
delivered, real property to be bought or leased, or work or services to be provided.
Defense Federal Acquisition Regulation Supplemental 253.208-1, “Military
Interdepartmental Purchase Requests,” requires reporting a realistic time of
delivery or performance on each MIPR.

Sole-Source Requirements. FAR 6.3, “Other Than Full and Open Competition,”
requires that a contracting officer shall not commence negotiations for a contract
resulting from an unsolicited proposal, or award any other contract without
providing for full and open competition unless the contracting officer justifies the
use of such actions in writing; certifies the accuracy and completeness of the
justification; and obtains the proper approval level (based on dollar limits) for the
justification. The exceptions identified in FAR 6.302 are: only one responsible


                                      7
           source and no other supplies or services will satisfy agency requirements; unusual
           and compelling urgency; industrial mobilization; engineering, developmental, or
           research capability; or expert services; international agreement; authorized or
           required by statute; national security; and public interest.

           Surveillance Requirements. FAR Subpart 46.103, “Contracting Office
           Responsibilities,” provides that contracting offices are responsible for receiving a
           QASP from the requesting activity when contracting for services. FAR
           Subpart 46.103 states:
                        Contracting offices are responsible for receiving from the activity
                        responsible for technical requirements any specifications for
                        inspection, testing, and other contract quality requirements essential to
                        ensure the integrity of the supplies or services (the activity responsible
                        for technical requirements is responsible for prescribing contract
                        quality requirements, such as inspection and testing requirements or,
                        for service contracts, a quality assurance surveillance plan).

           According to FAR Part 46.4, “Government Contract Quality Assurance,” a QASP
           should be prepared in conjunction with preparation of the statement of work and
           should specify all work requiring surveillance and the method of surveillance.
           FAR Part 46.4 states:
                        Government contract quality assurance shall be performed at such
                        times (including any stage of manufacture or performance of services)
                        and places (including subcontractors’ plants) as may be necessary to
                        determine that the supplies or services conform to contract
                        requirements. Quality assurance surveillance plans should be prepared
                        in conjunction with the preparation of the statement of work. The
                        plans should specify—(1) All work requiring surveillance; and (2) The
                        method of surveillance.

           FAR Part 37.6, “Performance-Based Contracting,” 7 addresses QASP
           requirements for performance-based contracts. It requires agencies to develop
           QASPs when acquiring services that contain measurable inspection and
           acceptance criteria corresponding to the performance standards contained in the
           statement of work. FAR 37.6 states:
                        Agencies shall develop quality assurance surveillance plans when
                        acquiring services (see 46.103 and 46.401(a)). These plans shall
                        recognize the responsibility of the contractor (see 46.105) to carry out
                        its quality control obligations and shall contain measurable inspection
                        and acceptance criteria corresponding to the performance standards
                        contained in the statement of work. The quality assurance surveillance
                        plans shall focus on the level of performance required by the statement
                        of work, rather than the methodology used by the contractor to achieve
                        that level of performance.


7
    FAR Part 37.6, “Performance-Based Contracting,” was revised to “Performance-Based Acquisition” on
     April 19, 2006. The FAR revision was effective after DoD OIG completed fieldwork, so the new FAR
     requirement did not affect the audit.



                                                       8
Past Performance Requirements. FAR 42.15 “Contractor Performance
Information,” states:
           Past performance information is relevant information, for future source
           selection purposes . . . It includes, for example, the contractor’s record
           of conforming to contract requirements and to standards of good
           workmanship; the contractor’s record of forecasting and controlling
           costs . . . interim evaluations should be prepared as specified by the
           agencies to provide current information for source selection purposes,
           for contracts with a period of performance, including options,
           exceeding one year.

The Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics (Defense Procurement and Acquisition Policy) issued “A Guide to
Collection and Use of Past Performance Information.” The current version,
issued in May 2003, articulates the key techniques and practices for the use and
collection of past performance information. The publication provides guidance
for both collection and use of past performance. Contracting offices must track
past performance information for contracts valued at $1.0 million or more. The
guide states that assessments must be made as close as practicable to each
anniversary of the effective date of the contract; however, the agencies shall
determine the specific dates. A best practice is to include performance
expectations in the Government’s and contractor’s initial post-award meeting.
Contract Funding Requirements. To use appropriated funds, there must be a
bona fide need for the requirement in the year the appropriations are available for
obligation. Section 1502(a), title 31, United States Code states,
           The balance of an appropriation or fund limited for obligation to a
           definite period is available only for payment of expenses properly
           incurred during the period of availability or to complete contracts
           properly made within that period of availability and obligated
           consistent with section 1501 of this title. However, the appropriation
           or fund is not available for expenditure for a period beyond the period
           otherwise authorized by law.

DoD Financial Management Regulation Appropriation Guidance. Annual
appropriation acts define the uses of each appropriation and set specific timelines
for use of the appropriations. However, the DoD Financial Management
Regulation, volume 2A, chapter 1, “Budget Formulation and Presentation,”
provides guidelines on the most commonly used DoD appropriations for
determining the correct appropriation to use when planning acquisitions.

       Research, Development, Test, and Evaluation. The Under Secretary of
Defense (Comptroller) (USD[C]) memorandum, “Clarification of Policy –
Budgeting for Information Technology and Automated Information Systems,”
October 26, 1999, further clarifies the use of research, development, test, and
evaluation (RDT&E) funds for IT purchases. DoD organizations fund
development, test, and evaluation requirements, including designing prototypes
and processes, with RDT&E appropriations. DoD organizations use RDT&E
funds to develop major system upgrades, to purchase test articles, and to conduct
developmental testing and initial operational testing and evaluation before the


                                          9
DoD organizations accept and produce systems. In general, RDT&E funds
should be used for all developmental activities involved with new systems or
major upgrades. RDT&E funds are available for obligation for 2 years.

        Operation and Maintenance. Expenses incurred in continuing
operations and current services are funded with operation and maintenance
(O&M) appropriations. The USD(C) considers all modernization costs under
$250,000 to be expenses, as are one-time projects such as developing planning
documents and conducting studies. O&M funds are available for obligation
for 1 year.

       Procurement. The acquisition and deployment of a complete system or
the modification of a system with a cost of $250,000 or more is an investment and
should be funded with a procurement appropriation. Complete system cost is the
aggregate cost of all components (for example, equipment, integration,
engineering support, and software) that are part of, and function together, as a
system to meet an approved documented requirement. For modification efforts,
count only the cost of the upgrade (for example, new software, hardware, and
technical assistance) towards the investment threshold. Procurement funds are
available for obligation for 3 years.

       Defense Working Capital Fund. The Defense Working Capital Fund is
a revolving fund, which means that it relies on sales revenue instead of direct
appropriations to finance its operations. A DoD organization that has a Defense
Working Capital Fund receives reimbursements from another organization for the
goods purchased or the services rendered. The revolving fund operates on a
break-even basis over time; that is, the DoD organization operating the Defense
Working Capital Fund neither makes a profit nor incurs a loss. Rates are adjusted
annually to keep the fund in balance. Defense Working Capital Funds do not
have a restriction on the time they are available for obligation.

        Military Construction. A military construction project includes the cost
of all military construction work to produce a complete and usable facility or a
complete and usable improvement to an existing facility. Section 2802, title 10,
United States Code states that the Secretary of Defense and the Secretaries of the
Military Departments may carry out such military construction projects as are
authorized by law. Section 2805, title 10, United States Code states that the
Secretary of Defense and the Secretaries of the Military Departments may carry
out unspecified minor construction projects equal to or less than $1.5 million. If
the project is to correct a deficiency that is life-, health-, or safety-threatening,
then the Secretary may approve the project to cost up to $3.0 million. Military
construction funds are available for obligation for 5 years.

The DoD March 24, 2005, Memorandum directs actions for services and goods.
Funds for services provided to a servicing agency that have expired require the
servicing agency to deobligate and return funds unless the order was prepared
when funds were available; the order was specific, definite, and certain; and the
period does not exceed 1 year for severable services. Funds for goods provided to
a servicing agency that have expired should be deobligated and returned from the
servicing agency unless the request was made when funds were available and the
item could not be delivered when funds were available.


                                     10
    The USD(C)/CFO issued a March 27, 2006, memorandum entitled “Proper Use of
    Interagency Agreements with Non-Department of Defense Entities Under
    Authorities Other Than the Economy Act” (DoD March 27, 2006, Memorandum).
    This memorandum was issued due to the need to improve the use and control of
    DoD funds under interagency agreements. The memorandum directs DoD to
    commence corrective actions immediately; failure to comply with corrective
    actions may result in the revocation of authority to transfer funds to non-DoD
    entities executing interagency agreements. The corrective actions include status
    reviews of all interagency agreements and coordination with outside entities to
    return funds no later than June 30, 2006. In addition, expired funds provided to a
    servicing agency for services or goods must be deobligated no later than
    June 30, 2006. Furthermore, existing orders for severable services using O&M
    funds should not extend beyond 1 year from the date the funds were accepted by
    the servicing agency. Interagency agreement funding documents for severable
    services should include a statement that funds are available for services for a
    period not to exceed 1 year from the date of obligation and acceptance of the
    order. The statement should also certify that goods acquired represent a bona fide
    need of the fiscal year funds were obligated. Finally, triannual review
    certifications should state that interagency agreements are consistent with DoD
    policy and report amounts reviewed and deobligated to the USD(C)/CFO no later
    than July 15, 2006.

DoD Planning for GSA-Assisted Contracting
    We visited 13 DoD organizations that sent funds to GSA using MIPRs and Orders
    for Work and Services (Form 2275) for the purchase of goods and services.
    Results among the 13 DoD organizations showed that the organizations did not:

           •   document that the non-DoD contracts were in the best interest of DoD;

           •   enter into interagency agreements with GSA that were specific,
               definite, and certain; and
           •   properly complete the MIPRs used to fund their purchases.

    Acquisition Planning. On 55 of 56 purchases, or 98 percent, as compared to
    91 percent last year (68 of 75 purchases), DoD organizations did not have
    supporting documentation illustrating that making the purchase through GSA was
    in the best interest of the Government. All 13 DoD organizations had some
    purchases with inadequate acquisition planning. During initial acquisition
    planning DoD organizations should determine the best way to purchase goods or
    services. One option is through an interagency transaction such as the GSA IT
    Fund. Another option includes the use of a DoD contracting office to procure the
    goods or services from a Federal Supply Schedule, an existing contract, or from a
    new contract award. Assisted acquisitions such as those performed by GSA CSCs
    include a surcharge of from 2 to 5 percent. Since DoD sent GSA CSCs
    approximately $3.0 billion for new orders and modifications to existing orders in
    FY 2005, DoD provided GSA between $60 million and $150 million in
    surcharges that might have been put to better use in DoD if using a DoD
    contracting officer had been a viable option instead of GSA.


                                        11
Basic acquisition planning ensures that requiring organizations consider
procurement alternatives before acquiring the goods and services. Agency
planning should address specific requirements through a preliminary statement of
need or statement of work. In addition, thorough acquisition planning provides
realistic delivery and performance schedules, identifies planned management
responsibilities for contract performance, and develops a tentative cost basis for
the purchase.

        Acquisition Alternatives. DoD purchases through GSA consistently
lacked an analysis of acquisition alternatives. Fifty-five of the 56 purchases
examined at 13 different DoD activities were not performed in accordance with
FAR requirements. For example, the Program Manager Tactical Radio
Communications Systems (PM TRCS) activity did not provide an acquisition plan
that justified the use of GSA as the best acquisition alternative. Specifically,
PM TRCS did not comply with either the FAR or the Army July 12, 2005,
Memorandum. This memorandum requires that the “head of the requiring
activity (06/GS-15 level or higher) must execute a written certification that the
order is in the best interest of the Army.” Without a documented analysis of
alternatives, PM TRCS was unable to support that the purchase was in the best
interest of the Government. A PM TRCS Contracting Officer’s Representative
(COR) stated that GSA required less stringent policy in prior years, so GSA was
selected as the chosen alternative. The COR added that lenient GSA “policy did
not require acquisition plans or justifications and approvals.” Government
agencies must select the best acquisition alternative, rather than the easiest to use.

In another instance, the Air Force Accounting and Finance Office (the AF
Finance Office) did not adequately determine whether selecting GSA was in the
best interest of DoD when placing a purchase of kiosks to be used on Air Force
bases. The AF Finance Office also did not use the correct fiscal year funds to
procure the goods. The AF Finance Office purchased commercial items to be
delivered in FY 2006 using FY 2005 O&M funds. The AF Finance Office
compliance and understanding with the Air Force December 6, 2004,
Memorandum would have resolved improper planning and incorrect use of funds
issues. The Air Force December 6, 2004, Memorandum requires that the Air
Force determine whether “use of a non-DoD contract is in the best interest of the
Air Force” and whether the “funding appropriation is legal and proper for the
acquisition and used in accordance with any appropriation limitation.” To avoid
inadequate acquisition planning, DoD personnel must comply with DoD policy.
Use of non-DoD contracts is not a substitution for proper acquisition planning.

Acquisition Guidance. Of 13 DoD activities reviewed, only 3 issued local
guidance on the proper use of non-DoD contract vehicles. The DoD
October 29, 2004, Memorandum states that Military Departments and Defense
agencies are required to establish procedures for reviewing and approving the use
of non-DoD contract vehicles when procuring supplies and services on or after
January 1, 2005. Specifically, the DoD October 29, 2004, Memorandum requires
that the procurement source be in the best interest of DoD; however, this
memorandum does not require contracting officers to review purchases. Though
the DoD October 29, 2004, Memorandum does not require contracting officers to
review purchases, the Army July 12, 2005, and Air Force December 6, 2004,
Memorandums direct the requiring activity to consult with the contracting office


                                     12
on various DoD contract options available to obtain supplies and services.
However, the Navy December 20, 2004, Memorandum does not require the
contracting office to review purchases. To promote acquisitions that are in the
best interest of DoD and prevent inconsistencies between DoD organizations, the
Under Secretary of Defense for Acquisition, Technology, and Logistics
(USD[AT&L]) should require that contracting officers review DoD purchases
being assisted by a non-DoD activity. The U.S. Army Communications and
Electronics Command, the Cryptologic Systems Group, and the U.S. Northern
Command prepared local guidance in accordance with the “Proper Use of
Non-DoD Contracts” guidance. However, those commands did not implement
the new procedures in time for local reviews to be performed on the purchases
reviewed during this audit. Overall, none of the 13 DoD organizations complied
with the DoD October 29, 2004, Memorandum on the proper use of non-DoD
contract vehicles.

Interagency Agreements. On 54 of 56 purchases, or 96 percent, as compared to
99 percent last year (74 of 75 purchases), the 13 DoD organizations reviewed did
not have adequate interagency agreements with GSA outlining the terms and
conditions of the purchase. Of the 54 inadequate interagency agreements, 25 had
no related interagency agreement, and 29 had inadequate interagency agreements
because the agreements did not address the specific purchases. The only
two purchases with adequate interagency agreements were at the Joint
Information Operations Center. The Joint Information Operations Center
developed two specific interagency agreements in accordance with military
requirements.

Twenty-nine interagency agreements available were not prepared in accordance
with DoD Instruction 4000.19 and Financial Management Regulation
volume 11A, chapter 1 requirements. Those requirements include detailed
descriptions of the procured goods and services, disclosure terms and conditions
for the procurement services, and the authority for entering into the agreement.
For example, the Counterintelligence Field Activity signed a Memorandum of
Agreement with GSA for counterintelligence support. The “boilerplate”
interagency agreement with GSA was signed by the Director for Business
Operations, Counterintelligence Field Activity. This agreement did not identify
the specific requirements of the purchase or contract surveillance roles and
responsibilities for the DoD program office and GSA contracting office
personnel. To the contrary, the agreement limited the roles and responsibilities
for contract surveillance to receiving and accepting services in a timely manner.
In a second example, the AF Finance Office interagency agreement did not list
the required minimum essential information. The Memorandum of Agreement
did not identify the dollar limits, financing source or fund citation, delivery
requirements, or duration of the agreement. The Defense Federal Acquisition
Regulation Supplement Part 207, “Acquisition Planning” mandates that supplies
or services acquired by placing an order under a non-DoD contract will be
consistent with DoD statutory and regulatory requirements applicable to the
acquisition and the requirements for use of DoD appropriated funds. Therefore,
non-DoD contracts must comply with DoD Instruction 4000.19 and Financial
Management Regulation volume 11A, chapter 1 requirements for preparing
interagency agreements. That information is necessary at the time the interagency
agreement is entered into to determine whether correct funds are being used and


                                   13
    whether the non-DoD purchase is in the best interest of DoD. The proper use of
    interagency agreements must be viewed as a shared responsibility by all parties
    involved in the purchase.

    MIPR Preparation. Of 223 MIPRs reviewed, 199 (89 percent) did not contain
    the required information necessary for interagency transactions. DoD
    organizations issued MIPRs that either lacked a specific, detailed description of
    the goods or services to be acquired or failed to specify the period of performance
    for purchased services. For example, the Battle Command Battle Laboratory,
    Fort Huachuca, issued a MIPR for services related to the creation of an advanced
    prototype capability called Blast and Damage Assessment Risk Analysis and
    Mitigation Application, totaling $1.6 million, but the MIPR did not include the
    required, detailed description for an interagency transaction. Overall, DoD
    MIPRs lacked detailed descriptions of the purchase or references to the
    statements of work containing both the purpose and detailed requirements.
    Additionally, MIPRs did not include the period of performance during which the
    contractor would supply the services.

    When preparing a MIPR, DoD organizations should include a reference to an
    interagency agreement, statement of work, task order, modification, or other
    contractual document that contains a specific description of goods and services
    being procured, including the expected periods of performance, to provide a
    sound basis for the use of DoD funds. Furthermore, the DoD March 27, 2006,
    Memorandum requires all future interagency agreement funding documents for
    severable services to include the statement, “These funds are available for
    services for a period not to exceed one year from the date of obligation and
    acceptance of this order. All unobligated funds shall be returned to the ordering
    activity no later than one year after the acceptance of the order or upon
    completion of the order, which ever is earlier.” The memorandum also requires
    that interagency funding documents for goods include the statement, “I certify
    that the goods acquired under this agreement are legitimate, specific requirements
    representing a bona fide need of the fiscal year in which these funds are
    obligated.”

Sole-Source Contracts
    Sole-Source Contracts. GSA contracting officials did not adequately justify the
    use of sole-source contracts for purchases. Fourteen of the 56 contract actions
    were examined to determine the adequacy of contracts awarded on a sole-source
    basis. Six of the 14 contract actions did not comply with FAR requirements when
    making sole-source awards. Two of the six sole-source awards cited the Directed
    Buy process. The Directed Buy is utilized by GSA to directly assign an order to a
    contractor specified on the statement of work. Another contract cited
    FAR 6.302-1, “One Responsible Source.” Two other contracts cited
    FAR 8.405-7(a)(4)(i), “Only One Responsible Source,” and FAR 8.405-
    7(a)(4)(iv), “Urgent and Compelling Need Exists.” Both of these FAR cites are
    located in Subpart 8.4, “Federal Supply Schedules.” Finally, the remaining
    contract action that did not comply with FAR requirements did not include an
    explanation as to why the contract was not competed. Although the sole-source
    exceptions were cited, the sole-source awards did not support the assertions.


                                        14
    Contracts that are not fully competed must provide sufficient explanations why
    FAR exceptions are allowable for DoD to use GSA in interagency orders. GSA
    did not furnish acceptable documentation supporting the use of FAR exceptions.

            GSA CSC Region 6–Kansas City. For instance, GSA contracting
    officials at Region 6 (Kansas City) issued a sole-source contract on behalf of the
    Defense Manpower Data Center. The requirement was for contractor technical
    support including an end-user help desk, communications/network support and
    engineering, and database server maintenance. The Justification and Approval
    (J&A) states “there is insufficient time to re-solicit this requirement on a
    competitive basis” and cites FAR 8.405-7(a)(4)(i), “only one source is capable of
    responding due to the unique or specialized nature of the work.” The
    “insufficient time” justification is not in accordance with the cited FAR 8.405-
    7(a)(4)(i) and is unacceptable. Specifically the J&A did not explain how the
    purchase was unique or specialized. We regard delays in re-soliciting
    requirements as a lack of advanced planning. The FAR states, “contracting
    without providing for full and open competition shall not be justified on the basis
    of a lack of advanced planning by the requiring activity.” Furthermore, GSA
    contracting officials did not comply with FAR requirements for “planning as soon
    as the agency need is identified,” so sufficient time was not available to compete
    the contract. Therefore, GSA did not ensure that the Government met its needs in
    the most effective, economical, and timely manner.

            GSA CSC Region 2–New York. In another instance, GSA contracting
    officials at Region 2 (New York) issued a sole-source task order for PM TRCS on
    March 4, 2005. The requirement was to provide the Taiwan Army with
    command, control, computer, communication, intelligence, surveillance, and
    reconnaissance. The J&A cites FAR 8.405-7(a)(4)(iv), which states that due to
    the urgent and compelling need, following ordering procedures would result in
    unacceptable delays. Furthermore, the disruption of service would negatively
    impact the Taiwan program. GSA approved the J&A on April 26, 2005. Since
    the J&A is dated nearly 2 months after the task order was awarded, GSA prepared
    the J&A after the acquisition award date. The J&A was not prepared within a
    reasonable period of time. GSA did not comply with proper procedures to award
    sole-source contract actions. If GSA followed proper procedures for awarding the
    contract action, other contractors may have been considered as alternative
    options.

Contract Administration
    DoD purchases reviewed did not clearly delineate contract administration roles
    and responsibilities for monitoring contractor performance or past performance
    information within DoD systems. Contract administration includes functions
    conducted by Government personnel from the awarding of the contract through
    contract termination. Furthermore, contract administration includes the elements
    of surveillance and documentation of past performance.

    DoD Contracting Officers’ Representatives. Defense Federal Acquisition
    Regulation Supplement Subpart 201.6, “Contracting Authority and
    Responsibilities,” states that contracting officers may designate qualified


                                        15
           personnel as their authorized representatives to assist in either technical
           monitoring or administration of a contract. GSA contracting officers identified
           DoD personnel as CORs for 22 of the 56 purchases. However, there was no clear
           guidance explaining the specific surveillance steps DoD and GSA personnel
           should perform for these contract actions.

           DoD Surveillance Roles and Responsibilities. At DoD activities 54 of
           56 purchases reviewed did not clearly identify the roles and responsibilities for
           contract administration. The DoD surveillance personnel duties and
           responsibilities stated within contract files were often vague and unclear. At
           PM TRCS, six of the nine purchases reviewed from the activity had identical
           GSA and DoD COR delegation letters delineating the same duties to both DoD
           and GSA personnel. Therefore, we could not determine which agency had
           responsibility for contract surveillance for these requirements. In most instances,
           DoD CORs were unaware of the GSA-assigned roles and responsibilities for
           contract administration and contract surveillance. For 30 of the 56 purchases,
           DoD surveillance personnel did not have a list of their duties and responsibilities.
           Discussions with GSA and DoD revealed that DoD CORs were ultimately
           responsible for monitoring contractors’ performance. The DoD October 29, 2004,
           Memorandum establishes procedures for reviewing and approving the use of non-
           DoD contract vehicles when procuring goods and services; however, additional
           policy is needed to clarify surveillance roles and responsibilities for interagency
           contracting. Agencies must work together in documenting clear contract
           administration duties and responsibilities.

           DoD Surveillance Efforts. DoD officials were unable to demonstrate how they
           effectively monitored contractor performance. DoD surveillance efforts did not
           provide assurance that the contractor performed work in accordance with contract
           specifications. Most DoD activities did not develop and implement QASPs in
           accordance with FAR requirements. DoD surveillance personnel often stated that
           surveillance procedures were limited to reviewing monthly status reports and
           invoices for evidence of contractor compliance with contract terms. In many
           cases, DoD surveillance personnel were unable to furnish detailed surveillance
           procedures to monitor the contractors performance, even on time-and-materials
           contracts that the FAR states must have tight controls as there is no incentive for
           the contractor to perform the contract in an efficient manner. DoD must develop
           and implement QASPs that include all work requiring surveillance and the
           method of surveillance when monitoring contractor performance on service
           contracts. This could assist DoD requiring offices in determining whether the
           contractor is being efficiently and effectively monitored, as well as help identify
           areas requiring surveillance improvements. Establishing effective surveillance
           efforts is also crucial in distinguishing excellent and poor performing contractors
           for past performance ratings.

           Forty-two of 51 purchases 8 did not develop and implement adequate surveillance
           plans that met military requirements. Thirty purchases did not include QASPs;
           the remaining 12 purchases contained inadequate surveillance plans. Without
           adequate surveillance plans there was no assurance that work requiring
           surveillance was actually monitored, or that the methods to perform surveillance
8
    Five of the purchases reviewed were for commodities and therefore did not require a QASP.



                                                     16
were adequate. Non-existent and inadequate surveillance plans increase the risks
of the contractor not performing within contract specifications. The FAR states
that time-and-materials contracts require sufficient oversight due to the lack of
incentive for the contractor to control costs or perform work efficiently. For
instance, the 53rd Wing Air Combat Command did not provide a QASP with
detailed metrics and surveillance procedures for the time-and-materials
acquisition supporting electronic warfare, weapons systems, and computer
systems. However, GSA contracting officials located in Atlanta (Region 4) did
prepare a QASP, although the surveillance plan methods of surveillance were too
broad. The QASP did not detail how the Government should monitor contractor
performance for this specific purchase. The DoD COR did not follow the
procedures within the surveillance plan because the DoD COR had no knowledge
that a QASP existed for the acquisition.

Contractor Past Performance. DoD policy states that contracts worth
$1.0 million or more with a period of performance longer than 1 year will have
annual performance assessment reports prepared. Periodically evaluating and
documenting current contractor performance into an automated past performance
information system provides valuable input to a contractor’s prior performance,
which can be an integral part of the “best value” source selection decision in
future contract awards. It also provides the contractor with added motivation to
perform at a very high level because future source selection decisions can be
greatly impacted by the contractor’s prior level of performance. Additionally,
it can force contractors to improve inadequate performance before the next
reporting cycle.

DoD contracting officials did not record GSA contractors’ past performance, nor
were they required to access the past performance system GSA uses to record
GSA contractors’ past performance. No past performance information on GSA
contracts had been entered into DoD past performance data collection systems
used to assess performance for future contract awards. GSA contracting officials
stated that GSA enters past performance information into the Past Performance
Information Retrieval System (PPIRS), the Federal Government’s central retrieval
system for all past performance assessments. PPIRS functions as the central
warehouse for performance assessment reports received from other Federal
performance information collections systems. However, PPIRS use is not
mandatory for Federal agencies. DoD officials are not required to use PPIRS;
however, they “may consider” information from the past performance system.
The Military Departments rely on the Contractor Performance Assessment
Reporting System and Past Performance Information Management System to
record and retrieve past performance information. The 13 DoD activities
reviewed did not use PPIRS, nor were they required to use PPIRS, the system that
holds past performance assessments of GSA contracts.

We believe that DoD should issue guidance requiring DoD organizations to enter
past performance information into PPIRS and access PPIRS for future source
selection decisions. PPIRS required use would ensure that DoD organizations
access past performance information from a central location. Furthermore, all
Government agencies should agree on a mandatory system that records contractor
performance for use by all agencies. A Government-wide system enables



                                   17
           agencies access to all contractor evaluations, rather than employing several
           different past performance systems that contain varying degrees of information.

Improper Use of Government Funds
           On 12 of 54 purchases, 9 or 22 percent, as compared to 51 percent last year (38 of
           75 purchases), the DoD requesting activity improperly used Government funds.
           DoD organizations either did not have a bona fide need in the year of the
           appropriation used or funded the purchase with an incorrect appropriation. On 11
           of 56 purchases, or 20 percent, DoD did not maintain an audit trail of the funds
           used to make the purchase. DoD auditors reviewed the procedures and controls
           related to 223 MIPRs (valued at approximately $179 million) that went to
           11 separate GSA CSCs over a time span from December 2002 through November
           2005 to fund 56 purchases. Of these 56 purchases, 51 had funded actions in FY
           2005. We reviewed funding of five purchases prior to FY 2005 purchases that
           used incorrect funds for FY 2005 and FY 2006 purchases.

           Preliminary acquisition planning involving a qualified DoD contracting officer
           and early communication with GSA can prevent the improper use of Government
           funds, ensure that DoD purchases made through GSA and other non-DoD
           activities are made in the best interest of DoD, prevent potential Antideficiency
           Act violations, prevent the loss of DoD funds through expiration or improper
           spending, and help ensure that DoD receives best-value acquisitions.

           During the prior year’s audit, both program and contracting officials operated as
           though funds accepted by GSA into the revolving IT Fund were available without
           limitation by fiscal year or use. The law, section 757, title 40, United States Code
           establishes the IT Fund, and states that the fund “shall be available without fiscal
           year limitation.” The phrase “shall be available without fiscal year limitation”
           applies to the capitalized fund itself. The funds reimbursing the capitalized fund
           must follow appropriations law. By not following the legal restriction on
           appropriations to have a bona fide need for the funds in the year appropriated,
           GSA and DoD organizations incorrectly used the GSA IT Fund to extend the time
           funds were available for use. GSA acceptance of funds into the IT Fund does not
           allow an agency to extend the periods of availability of appropriations or change
           the restrictions of appropriations beyond that which Congress enacted in annual
           appropriations acts. We reported in DoD IG Report No. D-2005-096 that
           between $1.0 billion and $2.0 billion of expired or unavailable funds remained at
           GSA. On March 24, 2005, the Deputy Chief Financial Officer directed Military
           Services and Defense Agencies to initiate actions to review these uncommitted
           balances, coordinate with GSA to return expired balances to their respective
           offices, and coordinate with their servicing accounting office to ensure that
           appropriate adjustments to the accounting records were recorded. To date, DoD
           activities have reported to the USD(C) that they have deobligated only about $183
           million in expired funds. The USD(C) must continue to monitor these funds and
           clean up their accounting records.


9
    Unable to determine whether Government funds were properly funded for one purchase at U.S. Northern
    Command and one purchase at Defense Security Service due to lack of available documentation.



                                                    18
           Our current audit also revealed that improper use of Government funds continues
           to remain an issue at GSA. Specifically, GSA and DoD still have not complied
           with legal restrictions on appropriations that require a bona fide need for the
           funds in the year appropriated. Once funds are past their period of availability,
           they cannot be used to finance new requirements and must be deobligated by DoD
           officials. The USD(C)/CFO must continue to work with GSA to deobligate these
           funds and must also oversee efforts by individual components to return the funds
           to the United States Treasury. Appendixes C and D list 12 new purchases that we
           believe improperly used Government funds.

                    Bona Fide Need. For 11 of the 54 purchases 10 reviewed, DoD funding
           authorities potentially violated the bona fide needs rule. Specifically, DoD
           funding authorities may have violated the bona fide needs rule by using annual
           O&M appropriations to fund the purchase of severable services that would not be
           received in the year of the appropriation or goods that were received in the year
           following the appropriation and did not have delivery, production lead time, or
           unforeseen delays. For example, the Fleet Numerical Meteorology and
           Oceanography Center (Fleet Numerical Center) sent five funding documents to
           GSA for NetCentric FastTrack Services. The Fleet Numerical Center sent the
           first funding document (N63134-04-WR-00004) for $386,000 to GSA on
           September 9, 2003; GSA accepted the funding document on September 24, 2003.
           The Fleet Numerical Center sent and GSA accepted the last funding document
           (N63134-04-WR-00004, amendment 4) for $156,000 on October 28, 2004. The
           five MIPRs sent, totaling $400,962, cited FY 2004 O&M funds. The Fleet
           Numerical Center was procuring severable services consisting of contractor
           subject matter expertise in exploring methods to exploit Web-based information
           systems. The services being procured were severable and the period of
           performance was from May 26, 2005, through May 25, 2006, a period that crosses
           from FY 2005 to FY 2006. Therefore, no FY 2004 bona fide need existed for this
           procurement.

           Similarly, the U.S. Central Command Air Force (CENTAF) sent three MIPRs to
           GSA using, 2-year O&M FY 2004 funds that expired on September 30, 2005.
           CENTAF sent the first MIPR (F3UTA65168GC01) for $17.0 million to GSA on
           June 20, 2005; GSA accepted the MIPR on July 8, 2005. CENTAF also sent
           MIPR F3UTA65168GC01, amendment 1 for approximately $1.7 million to GSA
           on August 30, 2005; GSA accepted the MIPR on September 8, 2005. Finally,
           GSA accepted MIPR F3UTA65168GC01, amendment 2 for negative $245,046 on
           September 23, 2005. The funds, totaling $18.5 million, were to purchase
           severable services supporting the Network Operations Security Center including
           networking, systems modeling, performance management, information assurance,
           routing, and switching. The 2-year FY 2004 funds, that expired
           September 30, 2005, supported a FY 2006 task order with a period of
           performance from October 1, 2005, through September 30, 2006. No FY 2004 or
           FY 2005 bona fide need existed for this procurement.

           Wrong Appropriation. For 1 of the 54 purchases, DoD organizations used the
           wrong appropriation to fund the requirement. The Fleet Numerical Center sent

10
     Unable to determine whether Government funds were properly funded for one purchase at U.S. Northern
     Command and one purchase at Defense Security Service due to lack of available documentation.



                                                    19
           GSA funding documents to GSA totaling $2.2 million. The Come and Get It
           Product Services purchase was funded for $2.1 million in FY 2004 O&M funds
           and $153,645 in FY 2005 O&M funds. The procurement is an upgrade to the
           Primary Oceanographic Prediction system. The Fleet Numerical Center should
           have used Other Procurement funds for this purchase, not O&M funds.
           Therefore, Fleet Numerical used the incorrect appropriation.

           Audit Trail of Funds. On 11 of 56 purchases, or 20 percent, as compared to
           59 percent last year (44 of 75 purchases), DoD did not maintain an audit trail of
           the funds used to make the purchase. On GSA transactions, DoD considered
           funds to be obligated when GSA returned a MIPR Acceptance document
           (DD Form 448-2), not when the funds were placed on contract. In addition, DoD
           officials often did not track funds past the point of obligation. However, the GSA
           Information Technology Solutions Shop (ITSS) Integrated System 11 included
           Certification of Funds documentation that enables system users to match GSA
           contract actions to corresponding MIPRs. The Certification of Funds document
           provides documentation that allows users to trace contracts to MIPRs meant to
           fund contract actions. Ten of the 11 purchases that did not maintain an audit trail
           of the funds were inputted into the GSA Preferred System. DoD personnel were
           unable to access the GSA Preferred System. Accordingly, they were unable to
           monitor these funds. Another purchase was not inputted into the ITSS Integrated
           or GSA Preferred Systems. This purchase did not include an audit trail allowing
           users to trace contracts to MIPRS. DoD officials should identify funds sent to
           GSA and identify those available for recoupment during required triannual
           reviews.

           GSA Funding Guidance. Guidance on the use of the GSA IT Fund was
           misunderstood. The GSA Chief Acquisition Officer issued an August 12, 2005,
           letter, “Fiscal Year 05 Cut-Off Dates for Assisted Acquisitions.” The letter
           instructs GSA contracting activities that “new task orders must be awarded within
           a reasonable period of time in FY 05 or early FY 06, i.e., within 90 days.” The
           policy that task orders for goods can be awarded 90 days after the next fiscal year
           begins appears to conflict with the DoD March 24, 2005, Memorandum. This
           memorandum requires that funds be obligated during the period of availability for
           items that can be delivered during the period of availability, unless the item
           cannot be delivered because of delivery, production lead time, or unforeseen
           delays.

           For instance, the Joint Information Operations Center (the Operations Center) and
           GSA misunderstood policy on Government funds that were incorrectly applied to
           the Operations Center requirement. The Operations Center sent
           MIPR F2MTKV5258G001 to GSA for $392,494 on September 15, 2005, using
           O&M funds; GSA accepted the MIPR on September 29, 2005. This purchase of
           equipment supports the Joint Multi-Disciplinary Vulnerability Assessment. In
           January 2006, the contract had still not been awarded for the equipment;
           therefore, the equipment was scheduled to be delivered to the Operations Center
           in FY 2006 or later. The Operations Center relied on GSA guidance that does not
           conform to DoD procurement regulations for the imminent award of the FY 2006
           contract using FY 2005 funds.
11
     DoD OIG did not test the computer system accuracy.



                                                    20
            The receipt of goods for the Joint Multi-Disciplinary Vulnerability Assessment
            purchase after the DoD appropriation expired cannot be justified based on
            delivery time, production lead-time, or unforeseen delays. Unforeseen delays
            include situations such as sudden labor strikes impacting deliveries or delays
            caused by natural disasters. Accordingly, no FY 2005 bona fide need existed for
            the equipment purchase. The Operations Center representative stated that GSA
            should know the required guidelines and not award a contract that is not proper.
            Incorrectly applied and misinterpreted guidance for the Operations Center
            requirement resulted in the potential Antideficiency Act violation. Clear
            guidance by the USD(C) would preclude DoD organizations from using other
            agencies to make purchases with expiring funds.

            Non-Economy Act Orders. Since funding documents sent to the GSA IT Fund
            are non-Economy Act orders, 12 many DoD organizations believe that financial
            management policies that apply to Economy Act orders are not applicable.
            During the prior year’s audit we reported that regulations were unclear on the
            polices for non-Economy Act orders. Regulations should direct whether
            Economy and non-Economy Act order purchases comply to similar requirements,
            or whether Economy and non-Economy Act order purchases should have their
            own separate guidelines. The Office of the USD(C) needs to issue clearer
            guidance on requirements for non-Economy Act order purchases. Clearer
            guidance is necessary to distinguish the difference between Economy and non-
            Economy Act orders.

Conclusion
            The DoD OIG identified 4 of 11 CSCs that did not fully comply with DoD
            procurement and funding regulations. The DoD OIG determined that Region 2
            (Northeast and Caribbean), Region 5 (Great Lakes), Region 7 (Greater
            SouthWest), and Region 10 (Northwest/Artic) were not fully compliant due to
            problems such as potential Antideficiency Act violations and the lack of adequate
            interagency agreements. Specifically, 3 of the 4 noncompliant CSCs had
            significant funding issues. The other CSC had substantial internal control
            weaknesses. None of the noncompliant CSCs prepared adequate interagency
            agreements. The DoD and GSA OIGs informed the Senate Armed Services
            Committee that the joint opinion between GSA and DoD as to whether the CSCs
            were compliant was qualified until all issues are resolved. The DoD OIG did not
            make recommendations on the four CSCs that were not fully compliant due to
            ongoing meetings between the Director, Defense Procurement and Acquisition
            Policy and the Chief Acquisition Officer, GSA. Both DoD and GSA are working
            to resolve problems found within the four CSCs; meanwhile, DoD will continue
            to do business with all GSA CSCs.

            The percentage of funding issues decreased from the prior year’s audit, but
            acquisition planning and interagency agreement deficiencies remain. GSA
            contracting officials and DoD requiring activity personnel showed improvement
            with FAR and appropriations law compliance when making purchases through
            GSA. However, DoD organizations continued to improperly use Government
12
     DoD organizations normally use Economy Act orders to fund interagency acquisitions.



                                                     21
    funds by not having a bona fide need in the year of the appropriation or funding
    the purchase with the incorrect appropriation. In addition, DoD contracting
    officers did not participate in preliminary acquisition planning that would help
    prevent the improper use of Government funds and ensure DoD purchases made
    through GSA are in the best interest of the Government.

    Furthermore, for DoD to use GSA interagency orders, GSA contracting officials
    must comply with FAR sole-source requirements when limiting full and open
    competition. Acquisitions that are not fully competed must adequately explain
    why FAR exceptions are allowed for the purchase. Acquisitions should be
    competed whenever possible since competition promotes innovation, significant
    savings, and performance improvements.

    Finally, contract administration policy is needed to identify surveillance roles and
    responsibilities for interagency agreements. DoD must develop and implement
    QASPs that include all work requiring surveillance and the method of
    surveillance when monitoring contractor performance. Surveillance personnel
    must document and record contractor past performance and enter it into past
    performance database systems. All Government agencies must agree on systems
    that record contractor performance for use by all agencies. The establishment of
    adequate controls are instrumental in ensuring that funding, acquisition planning,
    and contract administration functions are performed efficiently and effectively.

Actions Taken During the Audit
    Corrective Action Plan. The Office of the USD(AT&L) has shared with our
    office a draft Corrective Action Plan that was developed in collaboration with
    GSA acquisition executives. The draft Corrective Action Plan was developed to
    bring GSA-assisted acquisitions into alignment with statutory and DoD regulatory
    guidance. The draft Corrective Action Plan lists actions to improve the following
    areas of concern:

           •   inadequate sole-source justifications;
           •   vague/incomplete Statements of Work;

           •   boilerplate or non-existent Interagency Agreements;

           •   insufficient price reasonableness determinations;

           •   regional practices contrary to GSA guidance;

           •   inadequate or undefined contract surveillance and oversight
               requirements;

           •   inadequate funding oversight/management;

           •   potential Antideficiency Act violations;

           •   lack of standardized Interagency Agreement content;


                                         22
       •   lack of acquisition planning;

       •   lack of DoD contracting officer review prior to GSA acceptance;

       •   ensuring DoD customers provide quality MIPRs to GSA for assisted
           acquisitions;

       •   ensuring rates and prices contained within GSA schedule vehicles
           reflect current competitive market pricing;

       •   ensuring fees paid to GSA for services provided are fair and
           reasonable and consistent with the complexity of the tasks to be
           accomplished;

       •   ensuring adequate price competition is obtained for DoD requirements
           in accordance with statutory and regulatory requirements;

       •   ensuring sufficient contract oversight is performed to detect potential
           nonperformance and/or noncompliance issues and ensuring that
           contractor past performance is documented properly and in a timely
           manner;

       •   ensuring requirements are stated in “performance based” terms to the
           maximum extent possible, consistent with statute and regulation;

       •   ensuring training and education opportunities are made available to
           GSA CSCs and their customers;

       •   ensuring timely and accurate data is reported in the Federal
           Procurement Data System-Next Generation;

       •   ensuring DoD customers are provided with timely and accurate reports
           on GSA-assisted acquisition support;

       •   ensuring excess contract funds are deobligated in a timely manner and
           such results are reported to DoD customers; and

       •   ensuring and fostering an open line of communication between DoD
           and GSA leadership and promoting “Acquisition Excellence” within
           the two organizations.

The magnitude of the effort being made by DoD and GSA employees to bring
GSA-assisted acquisitions into alignment with statutory and regulatory guidance
is commendable. However, the GSA Federal Acquisition Service
Commissioner’s (the Commissioner) comments indicate that GSA does not share
responsibility with DoD in causing the problems identified in this report, which
raises concerns on whether GSA management is committed to implementing a
shared Corrective Action Plan. We have summarized the Commissioner’s
comments below. The complete text is contained in the Management Comments
section of the report.



                                    23
Management Comments on the Finding and Audit Response
    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Office of the USD(AT&L) concurred that better acquisition
    planning, discipline, and oversight are required in the area of interagency
    acquisition. The Office USD(AT&L) advised that since our audit concluded,
    DoD and GSA have been working on a Corrective Action Plan that addresses 22
    areas of concern including those areas identified in our report.

    GSA Comments. Although not asked to comment, the Commissioner provided
    comments on the finding. The Commissioner responded to the draft report and
    generally took exception with all portions of the report that attributed GSA as a
    causal factor to the problems identified in this report. The Commissioner stated
    that the report did not accurately reflect the facts and suggested some changes to
    the report. Additionally, on August 18, 2006, the GSA Administrator sent her
    comments to the Deputy Secretary of Defense under a separate cover letter that
    included these comments by the GSA Federal Acquisition Service Commissioner
    as an attachment. A summary of the Commissioner’s concerns follows.

    The Commissioner stated that GSA shares the interests of DoD in ensuring that
    contracts for goods and services on behalf of the Government comply with law,
    regulation, and administrative guidance and that he shares the DoD concern that
    GSA customer agencies and the American taxpayer receive the best value for
    every dollar spent. Specific comments on the finding are listed below.

           •   GSA disagreed with the statement that “Although GSA and DoD
               contracting and program management officials improved the assisted
               contracting process, they continued to purchase goods and services
               without fully complying with appropriation law, the Federal
               Acquisition Regulation, and DoD procurement regulations,” and that
               of 56 purchases reviewed, 55 were either hastily planned or
               improperly executed or funded. GSA recommended that wording be
               changed to show that DoD officials were responsible for acquisition
               errors and mismanagement and that the DoD IG found instances where
               we questioned GSA compliance with fiscal law and the Federal
               Acquisition Regulation. GSA stated that “GSA used funds in a
               manner consistent with the FAR but inconsistent with the DoD
               guidance as it now appears to be evolving.” GSA also noted that it
               now uses an automated tool for preparing acquisition plans and that
               our report does not provide specifics for where GSA actually failed to
               properly execute contracts in accordance with the FAR or applicable
               supplements.

           •   GSA disagreed that on 6 of 14 sole-source purchases reviewed, GSA
               CSCs did not provide adequate justification for sole-source
               procurements. GSA stated that in the first case, the purchase was for a
               6-month sole-source bridge contract and that although the justification
               and approval file did not include this information, it was clear from the
               whole contract file. In the second case, there was no need to do a
               justification and approval document because a justification for all task


                                        24
           orders was included with the basic contract. In the third and fourth
           cases, the reviewed purchases were from prior years and outside the
           scope of the audit. In the fifth case, the justification and approval
           document was inadequate but was not required. In the sixth case, a
           GSA review of the contract file found that the sole-source
           modification that occurred in April 2005 was fully compliant with the
           FAR and was signed by the contracting office on April 28, 2005, and
           that there was an adequate justification and approval document in the
           file.

       •   GSA disagreed that 12 of 54 purchases, improperly used Government
           funds and resulted in potential Antideficiency Act violations. GSA
           stated that there was a potential Antideficiency Act violation on only
           1 of the 54 purchases. In that case, GSA stated that they were unable
           to comment on whether the correct DoD appropriation was used.
           Three of the 12 cases identified as improper involved equipment
           purchases. GSA disagreed with the DoD conclusion that use of
           FY 2005 Operations and Maintenance funds for goods that will not be
           contracted for or delivered until FY 2006 requirements does not meet
           the bona fide needs rule. Four of the cases involved procurements that
           GSA now regards as non-severable services. However, GSA stated
           that the contracts awarded were structured as if they were for
           severable services. The remaining four cases involved procurements
           for severable services. GSA stated that just as with non-severable
           services, once a servicing agency accepts a proper interagency
           agreement for severable services, the requesting agency may record a
           valid obligation and the servicing agency may retain and obligate
           funds in the following fiscal year. GSA understands the DoD IG
           position and interpretation of fiscal law to be that if contractor
           performance begins on October 1, 2005, the task order represents a
           bona fide need in FY 2006 and requires FY 2006 funding.

       •   GSA disagreed that 4 of 11 CSCs did not fully comply with DoD
           procurement and funding regulations. GSA stated that there was not
           any justification for singling out the four CSCs identified in the DoD
           IG report. The DoD IG report did not include evidence that during FY
           2005, the CSCs failed to comply with the guidance that was in
           existence at the time the MIPRs and Inter-Agency Agreements were
           sent to GSA. Further, while there was a difference of opinion in what
           financial guidance should be followed, the CSCs in question followed
           the guidance that GSA had issued.

The GSA IG also provided comments on the report that generally parallel those of
the Commissioner. In his comments, the GSA IG wanted to clarify the roles of
the two audit activities performing the joint review. The GSA IG stated that our
report was based on the DoD IG examination of how DoD organizations were
managing transactions processed by GSA CSCs, and that the DoD IG work was
supplemented by information provided by the GSA OIG, which was performing a
parallel review of how GSA centers managed the acquisition process once orders
were received from military clients. Furthermore, the GSA OIG does not fully
agree with the findings and conclusions as presented in the DoD IG report.


                                   25
Specifically, the GSA IG stated that interagency agreements and QASPs were
prepared in accordance with the FAR.

Audit Response. DoD and GSA share responsibilities in causing the problems
identified in this report. Regardless of culpability, section 802 of the National
Defense Authorization Act for Fiscal Year 2005 directs the Inspectors General of
DoD and GSA to audit GSA compliance with DoD procurement requirements.
As to the specific concerns summarized, comments are provided below.

Although GSA uses software that ensures an acquisition plan exists within the
contract file, our review found that for the most part relevant DoD requiring
activities did not always know the GSA acquisition plans existed. Acquisition
planning requires the involvement of the requiring activity. Early preparation of a
specific interagency agreement signed by both parties would ensure a shared
interest. In addition, QASPs must include all work requiring surveillance and the
method of surveillance when monitoring contractor performance on service
contracts.

Regarding sole-source justifications, GSA states that in the first case, the
justification is for a 6-month bridge contract. In fact, this was an 8-month bridge
contract and the GSA contracting officer signed the justification almost 2 months
after award of the contract. A bridge contract provides time until a new contract
can be competed. Use of a bridge contract does not absolve the contracting
officer of justifying his reasons for a sole-source award. The second, third, and
fourth cases cited involve task orders awarded under the same indefinite-delivery,
indefinite-quantity contract by the Northeast Region. The basic
indefinite-delivery, indefinite-quantity contract contained a sole-source
justification and authorization for all task orders placed under that contract, a
practice that is not consistent with DoD contracting practices. A review of the
basic contract found many problems including a lack of basic internal controls
and task orders outside the scope of the contract. One task order that GSA
referred to in its comments was outside the time frame of the GSA sample.
However, the basic contract was still in use for the out-of-audit-scope task order
so we included that task order in our report to show that severe problems on older
contracts can continue and impact the present. Representatives from the office of
the USD(AT&L) have since informed us that the services on this contract are in
the process of being brought back to DoD for contracting.

In the fifth case, the justification for a sole-source award was clearly inadequate
as recognized by GSA. The last case involves a contract awarded at a CSC that
was undergoing a changeover to a new computer system that maintains
acquisition records. The GSA purchased the Preferred GSA System to support
assisted acquisitions at CSCs and was conducting a trial of the system at two
CSCs. The records from the two CSCs using this computer system were not
made available to DoD auditors, as the system did not work as intended. GSA
has since canceled the purchase of the GSA Preferred System and no longer uses
the system at its two CSCs. GSA delivered hard copies of the contract files to
DoD IG auditors; however, those records did not contain an adequate justification
and authorization for the sole-source purchase in question. We requested a
properly prepared justification and approval document several times but never
received it.


                                    26
Regarding the potential Antideficiency Act violations, GSA used its IT Fund to
extend the time of availability of DoD FY 2004 O&M funds by accepting funds
from DoD at the end of the fiscal year for goods and services that could not be
contracted for within a reasonable time. GSA Chief Acquisition Officer
Memorandum, “Fiscal Year 05 Cut-Off Dates for Assisted Acquisitions,”
August 12, 2005, states that a reasonable amount of time to award a contract is
90 days. The GSA policy is contrary to the DoD March 24, 2005, Memorandum,
which states that funds for goods provided to a servicing agency that have expired
should be deobligated and returned from the servicing agency unless the request
was made when funds were available, and the item could not be delivered when
funds were available. On two purchases for commercial equipment, GSA
accepted FY 2005 O&M funds in September 2005 and had not awarded contracts
in January 2006, placing the contracting activities in violation of both DoD and
GSA policies. The third equipment purchase was for commercial goods which
are presumed to be readily available; however, GSA did not award the contract
until October 25, 2006, almost a month after the funds expired. In four cases,
GSA now asserts that the purchases were for non-severable services although
GSA admits the contracts were structured for severable services. Preliminary
reviews of potential Antideficiency Act violations will determine whether the
services are severable, but after the fact changes in purchase definitions raises
questions as to adequacy of acquisition planning. In the remaining four cases,
GSA appears to argue that purchases for severable service should be treated the
same as purchases for non-severable services. The law clearly treats severable
and non-severable services differently. GSA statements on this topic are unclear.
Furthermore, the occurrence of the 12 potential Antideficiency Act violations
within DoD would hold both the funding and the receiving activity in violation of
statutory law. Although there is not a precedent that clearly demonstrates
responsibility, we believe that both parties have some culpability in these
12 potential Antideficiency Act violations.

Finally, on March 15, 2006, in accordance with Public Law 108-375, “The
Ronald W. Reagan Defense Authorization Act for FY 2005,” the Inspectors
General of DoD and GSA sent letters to the Chairmen of the Senate and House
Armed Services Committees. Those letters stated that 11 GSA Federal
Technology Service CSCs identified last year as “not compliant, but making
significant progress,” are now generally “compliant” with the FAR and applicable
DoD procurement requirements. However, the Inspectors General qualified the
joint opinion “to the extent that issues relating to fiscal year funding limitations
for interagency contracting between DoD and non-Defense agencies, including
the overall CSC [Client Support Center] program, need to be resolved before we
can say the CSCs are completely compliant.” We stand by our qualification to the
joint opinion provided to the Senate Armed Forces Committee regarding the
issues relating to the Senate Armed Services Committee regarding the issues
relating to the four CSCs.

Regarding the qualification to the joint opinion, the DoD IG discussed with DoD
management, the GSA IG, and GSA management whether four of the CSCs
should be permitted to operate “business as usual.” Some specific concerns are as
follows:

       •   Client Support Center No. 2-Northeast and Caribbean Region:


                                    27
           − Continued to award tasks on a $250 million indefinite-delivery,
             indefinite-quantity contract with little or no internal controls
             (undefinitized tasks, sole-source purchases without technical
             evaluations, or cost estimates).

           − At the time of the audit, had employees indicted and later convicted
             for fraud and kickbacks in connection with other indefinite-delivery,
             indefinite-quantity contracts administered by the same CSC.

           •   Client Support Center No. 5-Great Lakes Region:

           − Continued work on $171 million “Smartgate” project after the
             purchase of vehicle barriers was reported by both GSA and DoD last
             year as a potential Antideficiency Act violation; the extent of the
             additional work cannot be determined because of the lack of an
             adequate audit trail.

           •   Client Support Center No. 7-Greater Southwest Region:

           − DoD auditors found four of six FY 2005 purchases reviewed with
             potential Antideficiency Act violations, and two purchases were in
             non-compliance with both DoD and GSA guidance (used an annual
             appropriation and task was still not awarded more than 90 days after
             the start of the next fiscal year).

           •   Client Support Center No. 10 –Northwest/Arctic Region:

           − DoD auditors found four of five FY 2005 purchases reviewed with
             potential Antideficiency Act violations; all four were in
             noncompliance with both DoD and GSA guidance.

    Although we believe that GSA has made progress in improving its operation, we
    do not believe that it is blameless in the flawed acquisitions identified in this
    report and that DoD should shoulder all the blame. As reported last year, the
    mismanagement and lack of planning for the funds transferred to GSA over the
    last 5 years has resulted in from $1.0 billion to $2.0 billion of DoD funds to either
    expire or otherwise be unavailable for use. Currently, DoD has received
    disposition on only $183 million of those funds. DoD and GSA must work
    together to reconcile funds.

Recommendations, Management Comments, and Audit
  Response
    Recommendation 1.a. is identical to our recommendation in last year’s report. At
    that time, the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics stated that a new policy for interagency purchase
    reviews had not been in place long enough to judge its effectiveness. Our follow-
    up audit showed that the new policy was not effective and there is still a need to
    have a contracting officer review all interagency purchases. Accordingly, we are
    making the recommendation again.


                                         28
Recommendations pertaining to interagency funding problems are being
consolidated into a separate DoD IG report on the DoD Potential Antideficiency
Act Violations on DoD Purchases Made Through Non-DoD Agencies.

1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

        a. Establish requirements that a qualified DoD contracting officer
evaluate acquisitions for amounts greater than the simplified acquisition
threshold when requiring DoD organizations plan to use non-DoD contracts.
The contracting officer should determine whether the use of interagency
support capabilities is in the best interest of the Government. The
contracting officer should verify whether the required goods, supplies, or
services cannot be obtained as conveniently or economically by contracting
directly with a commercial enterprise. The contracting officer or another
official designated by the agency head should also sign a written
determination and finding.

Management Comments. The Director of Defense Procurement and Acquisition
Policy, responding for the Under Secretary of Defense for Acquisition,
Technology, and Logistics, partially concurred. The Director stated that his office
will issue a revision to its October 2004 policy memorandum on the “Proper Use
of Non-DoD Contracts” to require that a warranted contracting officer must
review any action greater than $500,000, where a non-DoD contract is utilized
before it is sent outside of DoD. The Director also stated that his office will
require the Military Departments, other Defense agencies, and DoD field
activities to amend their existing policies, as necessary, to meet this requirement.
The expected date of the policy memorandum is November 1, 2006.

Audit Response. The Director of Defense Procurement and Acquisition Policy
comments are responsive. No further comments are necessary.

        b. Develop a training course that instructs contracting and program
office personnel on proper acquisition planning and contract administration
for assisted acquisitions. The course should also emphasize the bona fide
needs rule and appropriations law.

Management Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated that his office is currently reviewing its curriculum in
all courses to ensure that the subject topics included in the recommendation are
properly covered. Under the leadership of the Defense Acquisition University,
his office will develop appropriate course materials in these subject areas.

      c. Establish overall DoD policies on acceptable contract
administration roles and responsibilities that DoD will accept when
purchasing goods or services through a non-DoD agency.

Management Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated that his office will issue guidance on contract
administration roles and responsibilities when purchasing goods or services
through a non-DoD agency. The expected date for issuance is November 1, 2006.


                                    29
       d. Finalize negotiations with non-DoD agencies to develop
interagency agreements that specify agreed-upon roles and responsibilities
regarding contract administration and surveillance duties.

Management Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated that his office will establish a Memorandum of
Agreement with General Services Administration that will include roles and
responsibilities regarding contract administration and surveillance duties.

       e. Negotiate with non-DoD agencies to develop procedures that will
record contractor performance on all Government contractors. In addition,
require DoD organizations to enter past performance information into the
Past Performance Information Retrieval System and access the Past
Performance Information Retrieval System for future source selection
decisions.

Management Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated that the Memorandum of Agreement between DoD
and General Services Administration will address roles and responsibilities
regarding past performance information in the Federal-wide past performance
database (PPIRS). In addition, his office will issue a policy memorandum
reminding the acquisition workforce of its responsibility to capture past
performance information and to utilize this information in the source selection
process. The expected date of the policy memorandum is December 1, 2006.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

       a. Continue to work with the General Services Administration to
determine the amount of expired funds at the General Services
Administration and oversee efforts by individual Components to deobligate
these funds.

Management Comments. The Acting Deputy Chief Financial Officer,
responding for the Under Secretary of Defense (Comptroller)/Chief Financial
Officer concurred. The Acting Deputy stated that his office had previously
directed all Components to review interagency agreements and coordinate the
return of excess funds with the outside agency by June 30, 2006. Components
have so far deobligated $183 million. He also stated that his office continues to
work with the Components and GSA to identify and synchronize GSA and DoD
records that will assist in the timely deobligation of excess funding.

       b. Provide guidance and clarification on the use of and difference
between Economy Act orders and Non-Economy Act orders. Specifically
address when funds are obligated and should be deobligated under each type
of order.

Management Comments. The Acting Deputy Chief Financial Officer concurred
and stated that his office had established an interagency acquisition working
group to develop policy and procedures that will provide guidance and
clarification on the use of Non-Economy Act orders, as well as distinguish


                                    30
between Economy Act orders and Non-Economy Act orders. The guidance will
be updated in the DoD Financial Management Regulation, volume 11A, chapter
3, in December 2006. In addition, his office is working with the Office of
General Counsel to issue additional policy on the proper use of DoD funds for
interagency agreements to address obligation and deobligation of funds under
Non-Economy Act orders.




                                  31
Appendix A. Scope and Methodology
   This audit was a joint review between the DoD OIG and GSA OIG. We
   performed the audit in accordance with the Ronald W. Reagan National Defense
   Authorization Act for Fiscal Year 2005. This law requires the Inspectors General
   of DoD and GSA to review the policies, procedures, and internal controls for
   purchases through GSA CSCs. Both the DoD OIG and GSA OIG reviews
   covered the 11 GSA CSCs. As a result, we reviewed 56 purchases funded by
   223 MIPRs valued at $179 million. We reviewed purchases initiated by DoD in
   September 2003 through ongoing procurements not yet awarded.

   GSA provided two lists of DoD activities and MIPRs obtained through statistical
   sampling. The first covered the period from May 1, 2005, through July 31, 2005;
   and the second from August 1, 2005, through October 31, 2005. We selected
   13 organizations that had high-value MIPRs from the two lists. The Army
   organizations visited were the U.S. Army Project Manager Tactical Radio
   Communications Systems, the U.S. Army Communications and Electronics
   Command, and the U.S. Army Intelligence Center. The Navy organization visited
   was the Fleet Numerical Meteorology and Oceanography Center. The Air Force
   organizations visited were the U.S. Central Command Air Force, Cryptologic
   Systems Group, 53rd Wing Air Combat Command, and the Air Force Accounting
   and Finance Office. The other Defense organizations visited were the
   U.S. Northern Command, Joint Information Operations Center, Defense
   Manpower Data Center, Defense Security Service, and Counterintelligence Field
   Activity. We also visited three GSA CSCs. The CSCs visited were GSA Region
   6 (Kansas City), GSA Region 2 (New York), and GSA Region 4 (Atlanta).

   For each site, we attempted to review a minimum of five purchases containing
   contract actions between May 1, 2005, and October 31, 2005. We first selected
   purchases from the GSA sample. When the GSA sample had fewer than five
   purchases, we selected additional purchases from the GSA universe used to create
   the GSA sample. If organizations did not have five purchases during the May
   through October 2005 time frame, we either reviewed fewer than our goal of five
   purchases or, if possible, reviewed additional purchases at another organization
   within the same general location.
   We reviewed documentation maintained by the contracting and program
   organizations to support purchases made through GSA. The purchase documents
   reviewed were MIPRs and GSA acceptances, statements of work, acquisition
   plans, task orders, cost proposals, surveillance plans, invoices, sole-source
   justifications, contract award documents, disbursement reports, payment history
   documents, and miscellaneous correspondence. Much of this information was
   obtained by downloading documents from the GSA ITSS Integrated System,
   which is the GSA repository for contract information. We met with the DoD
   General Counsel and the DoD OIG General Counsel regarding the bona fide
   needs rule issue. We interviewed contract specialists; finance officials; the Office
   of the USD(AT&L) personnel; Office of the USD(C)/CFO personnel; and
   program managers covering purchase requirements, bona fide needs,
   appropriation, and related internal control programs. Our audit included four
   major areas of review at the DoD organizations and two major areas of review at


                                        32
the GSA CSCs visited. At each DoD organization visited, our review included
the following.

   •   We determined whether DoD organizations had internal controls to ensure
       that the proper types of funds and proper year of funds were used for DoD
       MIPRs sent to GSA. We determined whether the organization had written
       procedures covering the use of MIPRs to non-DoD organizations. For
       each purchase reviewed, we determined whether the appropriation code
       was correct, and whether the appropriation code would be proper if the
       purchase had not been made through GSA.

   •   We determined whether DoD requiring organizations had internal controls
       for defining requirements and planning acquisitions for purchases awarded
       on GSA contracts. For each purchase reviewed, we determined when the
       organization developed the requirement and why GSA was selected to
       make the purchase. In addition, we determined whether there was a bona
       fide need for the requirement in the fiscal year of the appropriation used to
       finance the requirement.

   •   We determined whether DoD contracting activities are following
       established procedures for approving purchases made through the use of
       contracts awarded by GSA. Specifically, we determined whether a DoD
       contracting office was involved in planning the GSA purchase.

   •   We determined how contractor performance was being monitored in
       situations where DoD purchases were awarded on GSA contracts. For
       each purchase reviewed, we determined whether a DoD representative
       signed off on acceptance of contractor work.

At each GSA CSC visited, our review included the following.

   •   We determined whether the GSA CSCs adequately competed DoD
       purchases according to the FAR and Defense Federal Acquisition
       Regulation. For each sole-source award, we determined whether the GSA
       contracting officer prepared a J&A for other than full and open
       competition that adequately justified the sole-source award.

   •   We determined whether the GSA contracting officers adequately
       documented that the prices paid for the DoD purchases were fair and
       reasonable.

These additional audit steps at the GSA CSCs were performed on 13 of the 56
purchases reviewed during the audit.

We performed this audit from July 2005 through June 2006 in accordance with
generally accepted government auditing standards.

Limitations of Scope. We did not assess the accuracy of the past performance
information systems used within DoD, or the Government-wide PPIRS, which is
the official past performance system for compiling data on contractor
performance used throughout the Federal Government.


                                    33
Use of Computer-Processed Data. We obtained a statistical sampling of DoD
activities and purchases from GSA through its databases for May 1, 2005, through
October 31, 2005. From the list, we judgmentally selected high-value MIPRs for
review. We did not assess the reliability of the GSA-furnished data during this
audit; however, our previous audit, DoD IG Report No. D-2005-096 “DoD
Purchases Made Through the General Services Administration,” dated
July 29, 2005, did determine the GSA computer-processed listings to be
unreliable in reporting all DoD funding documents received by GSA. In addition,
we obtained much of the contract and funding information related to the 56
purchases reviewed from the GSA ITSS Integrated System. We did not assess the
reliability of the GSA ITSS Integrated System.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the high-risk area “Management of Interagency
Contracting.”




                                   34
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, Army, Air Force, and GSA have issued
    21 reports discussing MIPRs and Federal Technology Service’s Client Support
    Centers. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed at
    http://www.hqda.army.mil. Unrestricted Air Force reports can be accessed at
    http://www.afaa.hq.af.mil. Unrestricted GSA reports can be accessed at
    http://www.gsa.gov.

GAO
    GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

DoD IG
    DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act
    Violations Identified During the Audit of the Acquisition of the Pacific Mobile
    Emergency Radio System,” November 23, 2005

    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,”
    May 13, 2003
    DoD IG Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    DoD IG Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002

Army
    Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
    Management,” May 25, 2004


                                        35
    Army Report No. A-2002-0536-IMU, “Military Interdepartmental Purchase
    Requests, Logistics Assistance Group Europe,” August 21, 2002

Air Force
    Air Force Report No. F2005-0006-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 353d Special Operations Group,
    Kadena AB, Japan,” November 10, 2004

    Air Force Report No. F2004-0046-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 390th Intelligence Squadron,
    Kadena AB, Japan,” August 11, 2004

GSA IG
    GSA Report, “Compendium of Audits of Federal Technology Service Client
    Support Center Controls,” September 29, 2006

    GSA Report, “Compendium of Audits of Federal Technology Service Regional
    Client Support Center Controls,” June 14, 2005

    GSA Report, “Compendium of Audits of the Federal Technology Service
    Regional Client Support Centers,” December 14, 2004

    GSA Report No. A040097/T/7/Z05011, “Audit of Federal Technology Service’s
    Client Support Center,” Greater Southwest Region, December 10, 2004

    GSA Report No. A030205/T/9/Z05009, “Audit of Federal Technology Service’s
    Client Support Center,” Pacific Rim Region, December 9, 2004

    GSA Report No. A040191/T/6/Z05007, “Audit of Federal Technology Service’s
    Control and Testing of Those Controls,” Heartland Region, December 9, 2004

    GSA Report No. A040102/T/W/Z05004, “Audit of Federal Technology Service’s
    Client Support Center,” National Capital Region, December 9, 2004

    GSA Report No. A020144/T/5/Z04002, “Audit of Federal Technology Service’s
    Client Support Centers,” January 8, 2004

    GSA Report No. A020144/T/5/W03001, “Alert Report on Audit of Federal
    Technology Service’s Client Support Centers,” March 6, 2003




                                      36
Appendix D. Potential Antideficiency Act
            Violations That Occurred Primarily
            in FY 2005

U.S. Army Intelligence Center and Fort Huachuca
           Interactive Multimedia (Purchase No. 15). ∗ The U.S. Army Intelligence
           Center and Fort Huachuca sent MIPRs MIPR5FGSA5W054,
           MIPR5FGSA5W055, MIPR5FGSA5W056, and MIPR5FGSA5W057 (totaling
           approximately $2.61 million) to GSA on March 25, 2005, to obtain multimedia
           courseware development using 2-year O&M FY 2004 funds. The funds used
           expired on September 30, 2005. As of December 1, 2005, GSA had not awarded
           a contract. Use of FY 2004 2-year O&M funds to satisfy FY 2006 requirements
           does not meet the intent of the bona fide needs rule.

Fleet Numerical Meteorology and Oceanography Center
           NetCentric FastTrack Services (Purchase No. 16).∗ The Fleet Numerical
           Meteorology and Oceanography Center sent funding document N63134-04-WR-
           00004 for $386,000 to GSA on September 9, 2003, and GSA accepted the funding
           document on September 24, 2003; N63134-04-WR-00004, amendment 1 for
           negative $386,000 to GSA on September 29, 2003; N63134-04-WR-00004,
           amendment 2 for $350,000 to GSA on September 29, 2003; funding document
           N63134-04-WR-00004, amendment 3 for negative $105,038 to GSA on
           July 14, 2004; and funding document N63134-04-WR-0004, amendment 4 for
           $156,000 (citing FY 2004 O&M funds) to GSA on October 28, 2004. The total
           of the FY 2004 funding documents was $400,962, using O&M Funds. The center
           was procuring severable services consisting of contractor subject matter expertise
           in exploring methods to exploit Web-based information systems. The services
           being procured were severable and the period of performance was from
           May 26, 2005, through May 25, 2006, a period that crosses from FY 2005 to
           FY 2006. Use of FY 2004 O&M funds to satisfy requirements that begin in
           FY 2005 does not meet the intent of the bona fide needs rule.

           Trusted Service Engine (Purchase No. 17).∗ The Fleet Numerical Meteorology
           and Oceanography Center sent funding document N63134-04-WR-00059 for
           $850,000 to GSA on September 16, 2004, and funding document N63134-04-
           WR-00059, amendment 1 for negative $10,035 to GSA on May 26, 2005, for a
           total of $839,965 in FY 2004 O&M funds. The contract was for services to
           demonstrate that computer users will be limited to viewing information at their
           security classification level or lower when working on multiple networks with
           information of varying security classification levels. The period of performance
           for the severable services being procured was May 25, 2005, through
           January 31, 2006, a period that crosses from FY 2005 to FY 2006. Use of
∗
    Purchase number correlates with 56 purchases identified in Appendix C and Appendix E.



                                                    39
           FY 2004 O&M funds to satisfy requirements that begin in FY 2005 does not meet
           the intent of the bona fide needs rule.

           Come and Get It Product Services (Purchase No. 19). ∗ The Fleet Numerical
           Meteorology and Oceanography Center sent funding documents N63134-04-WR-
           00037 for $240,000 to GSA on July 20, 2004; amendment 1 for $1,256,690 to
           GSA on September 8, 2004; amendment 2 for $595,000 to GSA on
           September 10, 2004; amendment 3 for negative $20,000 to GSA on
           September 16, 2004; amendment 4, for $134,501 to GSA on September 29, 2004;
           and amendment 5 for negative $195,574 to GSA on October 28, 2004. They also
           sent funding document N63134-04-WR-00028 for $60,000 to GSA on
           May 17, 2004, and amendment 1 for $10,000 to GSA on September 8, 2004. In
           FY 2005, the Fleet Numerical Meteorology and Oceanography Center sent
           funding document N6313405WR00701 for $33,036 to GSA on
           November 22, 2004; amendment 1 for $166,963 to GSA on December 1, 2004;
           amendment 2 for negative $33,036 to GSA on September 22, 2005; and
           amendment 3 for negative $13,318 to GSA on September 28, 2005. This
           purchase was funded for $2,080,617 in FY 2004 O&M funds and $153,645 in
           FY 2005 O&M funds. This procurement was an upgrade to the Primary
           Oceanographic Prediction system. The Fleet Numerical Meteorology and
           Oceanography Center should have used Other Procurement funds for this
           purchase, not O&M funds. Therefore, the Fleet Numerical Meteorology and
           Oceanography Center used the incorrect appropriation. GSA awarded the
           contract on January 4, 2005.

           Information Assurance (Purchase No. 20).∗ The Fleet Numerical Meteorology
           and Oceanography Center sent funding document N6313404WR00056 for
           $600,000 to GSA on September 15, 2004; funding document N6313404WR00064
           for $300,000 to GSA on September 29, 2004; and funding document
           N6313404WR00064, amendment 1 for negative $136,336 on October 28, 2004.
           The funding totaled $763,664 in FY 2004 O&M funds, which expired on
           September 30, 2004. The services being obtained were support services for
           information assurance projects dealing with weather forecasts that are being
           transmitted to the warfighter. The period of performance for the severable
           services being procured was January 4, 2005, through January 3, 2006, a period
           that crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
           requirements that begin in FY 2005 does not meet the intent of the bona fide
           needs rule.

U.S. Central Command Air Force
           Network Operation Security Center (Purchase No. 21).∗ The U.S. Central
           Command Air Force sent MIPR F3UTA65168GC01 for $16,999,993 to GSA on
           June 20, 2005; amendment 1 for $1,748,238 to GSA on August 30, 2005; and
           amendment 2 for negative $245,046 to GSA on September 23, 2005, using 2-year
           FY 2004 O&M funds that expired on September 30, 2005. The funds were to
           purchase severable services supporting the Network Operations Security Center
           including networking, systems modeling, performance management, information
∗
    Purchase number correlates with 56 purchases identified in Appendix C and Appendix E.



                                                    40
           assurance, routing, and switching. A bridge contract was first awarded with a
           period of performance from August 1, 2005, through September 30, 2005. The
           2-year FY 2004 O&M funds were also used to fund a FY 2006 contract with a
           period of performance from October 1, 2005, through September 30, 2006. Use
           of FY 2004 2-year O&M funds to satisfy FY 2006 requirements does not meet the
           intent of the bona fide needs rule.

Air Force Accounting and Finance Office
           Kiosks (Purchase No. 31). ∗ The Air Force Finance and Accounting Office sent
           MIPR F1AF2B5265G001 for $1,400,000 to GSA on September 22, 2005, using
           FY 2005 O&M funds. The funds were to purchase automated kiosks that allow
           Air Force personnel to make inquiries about and changes to their pay and
           personnel records. The contract for the kiosks, which are considered commercial
           items, was awarded October 25, 2005. The Air Force Finance and Accounting
           Office purchased commercial items that will be delivered in FY 2006 using
           FY 2005 O&M funds. The receipt of goods after the DoD appropriation expired
           could not be justified because of delivery time, production lead-time, or
           unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006 requirements
           does not meet the intent of the bona fide needs rule.

Joint Information Operations Center
           IT and Operations Support (J2) (Purchase No. 39).∗ The Joint Information
           Operations Center sent MIPR MIPR4JGSAJ2043 for $311,709 to GSA on
           June 1, 2004, using FY 2004 O&M funds to partially fund a purchase for IT and
           operational expertise supporting the U.S. European Command, which includes
           integration of current IT, identifying information operations applicable databases,
           and technical expertise. GSA awarded the contract on November 4, 2004. Use of
           FY 2004 O&M funds to satisfy FY 2005 requirements does not meet the intent of
           the bona fide needs rule.

           Network System Support and Administration (Purchase No. 40).∗ The Joint
           Information Operations Center sent MIPR NMIPR04250037 for $875,000 to
           GSA on September 25, 2003; MIPR NMIPR04250550 for $418,788 to GSA on
           September 8, 2004; MIPR NMIPR04250551 for $586,212 to GSA on
           September 8, 2004; and MIPR NMIPR04250558 for $6,148 to GSA on
           September 14, 2004, for a total of $1,886,148 in FY 2004 O&M funds. The Joint
           Information Operations Center also sent MIPR F2MTKV5244G002 for
           $1,031,557 to GSA on October 13, 2005, using FY 2006 O&M funds. The funds
           were to purchase severable services supporting the command’s network. The
           funds were used to cover a base contract period from September 15, 2003,
           through September 30, 2004, for $849,000; option year 1, from October 1, 2004,
           through September 30, 2005, for $891,000; and option year 2, from
           October 1, 2005, through September 30, 2006, for $891,000. Since no FY 2005
           funds were sent in FY 2005 to support option year 1, it appears the services
           received that year were funded with FY 2004 funds. Use of FY 2004 O&M funds
∗
    Purchase number correlates with 56 purchases identified in Appendix C and Appendix E.



                                                    41
           to satisfy FY 2005 requirements does not meet the intent of the bona fide needs
           rule.

           Personal Video Systems (Purchase No. 41).∗ The Joint Information Operations
           Center sent MIPR F2MTKV5262G001 for $73,912 to GSA on
           September 19, 2005, using FY 2005 O&M funds to purchase various Tandberg
           equipment, including 12 personal video systems. As of January 2006, no contract
           had been awarded for the equipment; therefore, the equipment will be delivered in
           FY 2006 or later. The receipt of goods after the DoD appropriation expired
           cannot be justified because of delivery time, production lead-time, or unforeseen
           delays. Use of FY 2005 O&M funds to satisfy FY 2006 requirements does not
           meet the intent of the bona fide needs rule.

           Joint Multi-Disciplinary Vulnerability Assessment (Purchase No. 42). ∗ The
           Joint Information Operations Center sent MIPR F2MTKV5258G001 for $392,494
           to GSA on September 20, 2005, using FY 2005 O&M funds. The funds were to
           purchase equipment in support of the Joint Multi-Disciplinary Vulnerability
           Assessment. As of January 2006, no contract had been awarded for the
           equipment; therefore, the equipment will be delivered in FY 2006 or later. The
           receipt of goods after the DoD appropriation expired cannot be justified because
           of delivery time, production lead-time, or unforeseen delays. Use of FY 2005
           O&M funds to satisfy FY 2006 requirements does not meet the intent of the bona
           fide needs rule.

Defense Security Service
           National Industrial Security Program Certification and Accreditation Tools
           (Purchase No. 48).∗ The Defense Security Service sent MIPR NMIPR04970376
           for $310,000 to GSA on September 17, 2004, using FY 2004 O&M funds. The
           funds were to purchase the testing of automated certification and accreditation
           tools, program management support, and independent verification and validation
           of automated tools. The contract for these severable services was awarded on
           August 25, 2005, for a period of performance of August 26, 2005, through
           August 25, 2006, a period that crosses from FY 2005 to FY 2006. Use of
           FY 2004 O&M funds to satisfy requirements that begin in FY 2005 does not meet
           the intent of the bona fide needs rule.




∗
    Purchase number correlates with 56 purchases identified in Appendix C and Appendix E.



                                                    42
               Appendixes Abbreviations, Acronyms, and Footnotes Defined

Abbreviations
N/A    Not Applicable
ND     Did not determine due to lack of documentation.
T.O.   Task Order

Acronyms
ASVAB           Armed Services Vocational Aptitude Battery
BADARAMA        Blast and Damage Assessment Risk Analysis and Mitigation Application
BBN             Base Band Node
BISRDM          Battlespace ISR Domain Model
C4ISR           Taiwan Command, Control, Computer, Communications Intelligence Surveillance and
                 Reconnaissance
CECOM           Communications and Electronics Command
CCMS            Case Control Management System
CPSG            Cryptologic Systems Group
CSETO           Combat Systems Engineering Test and Operations
CWID            Coalition Warrior Interoperability Demonstration
DW              Defense-Wide
DWCF            Defense Working Capital Fund
DUNS            Data Universal Numbering System
EDM             Engineering Data Management
EPLRS           Enhanced Position Location Reporting System
FMS             Foreign Military Sales
ICC             Integrated Call Center
IT              Information Technology
IV&V            Independent Verification and Validation
JNN             Joint Network Node
JMDVA           Joint Multi-Disciplinary Vulnerability Assessment
JPAS            Joint Personnel Adjudication System
MSE             Mobile Subscriber Equipment
NCSDO           Network and Computer Systems Development and Operation
NISP            Network Industrial Security Program
NOSC            Network Operations Security Center
O&M             Operation and Maintenance
PM TRCS         Project Manager, Tactical Radio Communications Systems
RAPIDS          Real-Time Automated Personnel Identification System
RDT&E           Research, Development, Test, and Evaluation
SETA            System Engineering Technical Advisory
SSS             Single Shelter Switch
TSS             Technical Support Services
UMI             University of Military Intelligence
WCF             Working Capital Fund

Footnote
*Contract Not Awarded
**DoD Activity Requested DoD IG Review FY 2004 Contract Action.




                                                 59
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Army Intelligence Center
Commander, Communications-Electronics Command
Commander, Program Executive Office, Command, Control, and
  Communications Tactical
  Project Manager, Tactical Radio Communications Systems

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Fleet Numerical Meteorology and Oceanography Center

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Electronic Systems Center
  Commander, Cryptologic Systems Group
Auditor General, Department of the Air Force
Commander, 53rd Wing




                                          60
Combatant Commands
Commander, U.S. Central Command
  Commander, U.S. Central Command Air Forces
Commander, U.S. Strategic Command
  Commander, Joint Information Operations Center
Commander, U.S. Northern Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Security Service
Director, Defense Manpower Data Center
Director, Counterintelligence Field Activity

Non-Defense Federal Organization
Office of Management and Budget
General Services Administration, Inspector General

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                           61
Office of the Under Secretary for Acquisition,
Technology, and Logistics Comments




                       63
64
65
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       66
67
General Services Administration Comments




                     68
69
70
71
72
     Final Report
      Reference




     Revised




73
74
75
76
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Timothy E. Moore
Steven I. Case
Christine M. McIsaac
Kevin G. Burrowes
Breon E. Dehoux
Marcie McIsaac
Meredith H. Johnson
